<html>
<title> - STATUS OF U.S.-RUSSIA ARMS CONTROL EFFORTS</title>
<body><pre>[Senate Hearing 115-795]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 115-795

                           STATUS OF U.S.- RUSSIA 
                            ARMS CONTROL EFFORTS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2018

                               __________



       Printed for the use of the Committee on Foreign Relations


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                   Available via the World Wide Web:
                         http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-370 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                ROBERT MENENDEZ, New Jersey
MARCO RUBIO, Florida                 BENJAMIN L. CARDIN, Maryland
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        


                         C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     2

Thompson, Hon. Andrea L., Under Secretary for Arms Control and 
  International Security, U.S. Department of State, Washington, 
  DC.............................................................     5
    Prepared statement...........................................     6

Trachtenberg, Hon. David J., Deputy Under Secretary of Defense 
  For Policy, U.S. Department of Defense, Washington, DC.........    10
    Prepared statement...........................................    12

              Additional Material Submitted for the Record

Responses of Hon. Andrea L. Thompson to Questions Submitted by 
  Senator Marco Rubio............................................    41

Responses of Hon. Andrea L. Thompson to Questions Submitted by 
  Senator Robert Menendez........................................    45

Responses of Hon. Andrea L. Thompson to Questions Submitted by 
  Senator Edward J. Markey.......................................    48

Responses of Hon. Andrea L. Thompson to Questions Submitted by 
  Senator Jeff Merkley...........................................    53

Responses of Hon. Andrea L. Thompson to Questions Submitted by 
  Senator Cory A. Booker.........................................    54

Responses of Hon. David J. Trachtenberg to Questions Submitted by 
  Senator Marco Rubio............................................    55

Responses of Hon. David J. Trachtenberg to Questions Submitted by 
  Senator Robert Menendez........................................    58

Responses of Hon. David J. Trachtenberg to Questions Submitted by 
  Senator Edward J. Markey.......................................    60

Responses of Hon. David J. Trachtenberg to Questions Submitted by 
  Senator Jeff Merkley...........................................    65

Responses of Hon. David J. Trachtenberg to Questions Submitted by 
  Senator Cory A. Booker.........................................    66


 
                         STATUS OF U.S.-RUSSIA 
                          ARMS CONTROL EFFORTS

                              ----------                              


                      TUESDAY, SEPTEMBER 18, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Risch, Rubio, Flake, 
Gardner, Young, Barrasso, Isakson, Portman, Paul, Menendez, 
Cardin, Shaheen, Coons, Udall, Murphy, Kaine, Merkley, and 
Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. I want to thank everybody for being here. I 
think because we need 11 people to vote, we are going to go 
ahead and give the opening statements. As soon as we get to 11 
folks, we will stop and vote on the noms. Again, I want to 
thank everybody for their cooperation.
    But first, I want to thank our witnesses for being here 
with us today. We are fortunate to have such an experienced and 
distinguished panel.
    As our members know, this is the fourth in a series of 
hearings on Russia since July, with today's hearing considering 
the current status of and prospects for arms control efforts.
    The current situation is not encouraging. Out of four 
agreements, New START, the INF Treaty, the Open Skies Treaty, 
and the Chemical Weapons Convention, we have significant 
problems with Russian compliance of three of them.
    It should come as no surprise to any of us that Russia has 
been cheating on its treaties. Vladimir Putin's government has 
annexed Crimea, occupied parts of Russia, interfered with 
elections, including our own, used chemical weapons to poison 
individuals on British soil, and even purportedly hacked U.S. 
utilities.
    Given that record, he is not likely to let treaty 
commitments get in his way either.
    The question we need to ask is what we are going to do. 
Some argue that we should just walk away from the INF Treaty 
since Russia has been in blatant violation for several years 
now. Some think that is exactly what Putin hopes for. The last 
time we deployed intermediate range missiles to West Germany in 
1983, a million people protested. That is exactly the kind of 
division that Russian information operations are designed to 
exploit and to intensify.
    As we discussed at our meeting on NATO, it is crucial that 
we remain unified with our European partners on defense and 
deterrence issues. On the Open Skies Treaty, we are at an 
impasse with the Russians. We have not had a flight all year. 
We can live without that data, but it hurts the 32 other 
countries that do not have the same alternative resources that 
we do.
    Even with New START, which has succeeded in its objectives 
so far, we should be realistic about our expectations of where 
we will be with Russia in 2021 when the treaty expires, unless 
extended.
    Nevertheless, we need to be thinking carefully about the 
effects of new weapons and technologies on strategic stability 
between the U.S., Russia, and other nations. Putin has boasted 
about the hypersonic glide vehicles, nuclear-powered ballistic 
missiles, nuclear torpedoes, and Russian advances in cyber 
warfare, space, and artificial intelligence. Each of these 
developments introduces new uncertainties into the deterrence 
calculations of adversaries and none of them is easy to address 
from an arms control verification and compliance perspective.
    But as we devote our own research and development into 
these areas, we must consider their potential to encourage 
risk-taking by any country with access to them.
    I hope our witnesses today can not only provide an 
assessment of the status of current agreements but also offer 
us some assurance that the State and Defense Departments are 
considering these emerging arms control challenges.
    I also hope we can gain a better understanding of any arms 
control discussions that took place at the Helsinki Summit and 
what the prospects may be for future arms control agreements.
    With that, I want to thank you again for being here.
    I still do not think we have 11, so I will turn to our 
distinguished ranking member, Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman, for convening 
today's hearing as part of a series of hearings on the U.S. 
policy towards the Russian Federation.
    Arms control efforts to reduce the risk of nuclear war and 
limit Russia's nuclear forces are vital for maintaining and 
strengthening U.S. national security.
    Despite a number of inquiries to the Secretary and others, 
more than 2 months after President Trump's Helsinki meetings 
with President Putin, we remain largely in the dark as to what 
the two leaders discussed or agreed to during their 2-hour 
closed session. We do know that Russian Ambassador to the 
United States Anatoli Antonov told reporters that, quote, 
important verbal agreements were reached at the Helsinki Summit 
on arms control issues, including preservation of the New START 
and INF Treaty.
    We continue to find ourselves in an incredible situation. 
The American people, the elected officials in this body, and 
members of the President's own administration hear more from 
Russian officials about alleged agreements that the President 
is making about critical national security issues.
    What constitutes an important verbal agreement? Has the 
President reached key decisions with Russia on key arms control 
treaties? If so, why has Congress not been informed about this 
decision?
    Along with many others in this body, I have for many years 
strongly supported policies to confront Russia for its multiple 
and ongoing transgressions, including military aggression, 
malign influence, and repressive policies. I believe that we 
must develop comprehensive strategies to confront our 
adversaries that ultimately prioritize the safety and security 
of the United States and its citizens. This requires being 
clear-eyed about the threats we face and all the tools our 
adversaries can wield against us. Constraining the 
proliferation of nuclear weapons must be a core component of 
our strategy.
    Given the reality of Russia's current nuclear capacity, we 
must collectively use every diplomatic tool in our arsenal, 
economic, political, and military, to achieve our goals. The 
stakes could not be higher.
    We have historically negotiated and entered into agreements 
with our adversaries, recognizing that we are dealing with 
hostile powers that cannot be trusted. We build in metrics that 
account for a probability of efforts to deceive and dodge. In 
high stakes agreements, provisions outlining U.S. intelligence 
verification and compliance are essential. In the universe of 
arms control agreements with Russia, we conduct onsite 
inspections of military bases and facilities. We require data 
exchanges in order to track the status and make-up of their 
nuclear forces.
    Today we know Russia is violating the Intermediate Range 
Nuclear Force Treaty. If we have evidence that a country is 
violating international commitments, we must be unequivocal in 
working through the construction of the agreement to bring them 
back into compliance. We must never lose sight of our 
objectives with any arms control agreement: to reduce the risk 
of catastrophic war and to constrain our adversary's ability to 
threaten us and our allies.
    In assessing the value of an arms control agreement, we 
must consider whether our participation in the agreement 
further advances our goals. Would withdrawing or walking away 
from an agreement strengthen our hand or ultimately leave us 
without a seat at the table without insight into our 
adversary's stockpile? Safer or less secure?
    Finally, I want to remind our members of some of the 
history surrounding the Senate's ratification of the New START 
treaty. When the Senate deliberated New START in 2010, some of 
my colleagues on the other side of the aisle, including our 
esteemed chairman, made it clear that they were willing to vote 
for the treaty but only as part of a deal that modernized our 
nuclear forces and infrastructure.
    Neither an unconstrained nuclear arms race nor blind faith 
in arms control agreements serve U.S. national security 
interests. American security is best served with a strong, 
credible deterrent that operates within the legally binding, 
stable, and constrained arms control environment.
    I hope the Trump administration fully appreciates this 
vital linkage. Diminishing, for example, the value of arms 
control and placing all faith in one-dimensional conceptions of 
increasing nuclear strength to bring the Russians and the 
Chinese to heel will result in a far more dangerous strategic 
environment.
    I also want to remind the administration that bipartisan 
support for nuclear modernization is tied to maintaining an 
arms control process that controls and seeks to reduce Russian 
nuclear forces, which inevitably means promoting military and 
fiscally responsible policies on ourselves. We are not 
interested in writing blank checks for a nuclear arms race with 
Russia, and we do not want to step off our current path of 
stability to wander again down an uncertain road filled with 
potentially dire consequences.
    And the final note I would make, Mr. Chairman--I guess we 
have enough people now to go ahead and vote--is that I hope 
that as part of our oversight, which I applaud you for having 
conducted with these hearings, that we will also get to an 
opportunity to mark up DASKAA and similar related bills. I 
think it is important for the Congress to speak about Russia's 
violations of the international order, certainly the 
undermining of our election.
    And since we have very often in this committee taken up 
sanctions as part of our overall foreign policy tools, which is 
one of the critical tools of peaceful diplomacy, I would urge 
you, Mr. Chairman, to make sure that we also keep 
jurisdictional opportunities as it relates to that and that we 
can have a markup that sends a, hopefully, united message to 
the Russians that we will not tolerate their actions both at 
home and abroad.
    And with that, Mr. Chairman, I look forward to the 
witnesses.
    The Chairman. Thank you. And thank you for that statement.
    I think everyone here understands that depending on how you 
write a bill and what key phrases you use, it determines which 
committee it goes to. And we are not giving up jurisdiction on 
anything, but every committee member has to understand if they 
want it to come to Foreign Relations, they have to write it a 
certain way. And I know everybody has mastered that art. I know 
you did on your bill, and it is a bill that is in this 
committee. So I thank you for referring to that.
    With that, I thank everyone for their cooperation in being 
here. What I would like to do is recess our hearing and move to 
a very quick business meeting, if we could. And I thank all of 
you.
    I know that it does not mean much too many of us here in 
some ways to confirm these nominees. It means a whole lot to 
them, and it means a tremendous amount to the countries that 
they are going to. And so I thank you.
    [Recess.]
    The Chairman. We will begin again the hearing. And I thank 
all of those for being here.
    You completed your opening statement, I think. So let me 
move to another part.
    Our first witness today is the Honorable Andrea Thompson, 
Under Secretary of State for Arms Control and International 
Security. We had a chance to speak in the back, but thank you 
so much for being here and sharing your expertise with us.
    Our second witness is the Honorable David Trachtenberg, 
Deputy under Secretary of Defense for Policy. I shared the same 
with you.
    Thank you both.
    If you could summarize in about 5 minutes, any written 
materials you have, without objection, it will be entered into 
the record. We thank you again for being here. It is an 
important hearing. And if you could just begin in the order 
introduced, I would appreciate it.

STATEMENT OF HON. ANDREA L. THOMPSON, UNDER SECRETARY FOR ARMS 
 CONTROL AND INTERNATIONAL SECURITY, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Thompson. Good morning, Chairman Corker, Ranking Member 
Menendez, and distinguished members of the committee. Thank you 
for hosting this hearing and welcoming me here today to discuss 
arms control with Russia, a topic that is central to our 
security and indeed the world's.
    The 2018 Nuclear Posture Review states, quote, ``progress 
in arms control is not an end in and of itself, and depends on 
the security environment and the participation of willing 
partners.'' End quote. The value of any arms control agreement 
is derived from our treaty partners maintaining compliance with 
their obligations and avoiding actions that result in mistrust 
and the potential for miscalculation. Russia continues to 
violate a series of arms control obligations that undermine the 
trust the United States can place in treaties, including some 
that have served U.S. and allied security interests for years.
    As reflected in the administration's National Security 
Strategy and echoed in our National Defense Strategy, great 
power competition is reemerging. We can no longer be complacent 
in the face of challenges by geostrategic competitors. We need 
to be creative and flexible in how we approach and manage our 
strategic competition with Russia, and that includes an 
evaluation of where we stand with respect to our arms control 
agreements and their interrelationship with our deterrence and 
defense requirements.
    I will begin with the New START treaty.
    In February of this year, both countries confirmed 
compliance with the treaty's central limits on ICBMs, SLBMs, 
and heavy bombers and their associated warheads. We are 
committed to implementing the treaty and ensuring Russia stays 
in compliance. I know this committee has sought the 
administration's view of extending the treaty. No decision has 
been made at this time.
    Meanwhile, Russia has persisted in its violation of the INF 
Treaty through Russia's SSC-8 ground-launched cruise missile 
program. This administration has utilized new diplomatic, 
economic, and military measures to pressure Russia to return to 
compliance. The lack of any meaningful steps by Russia to do so 
diminishes our hope that it wants to preserve the INF Treaty. 
As we have said many times, the status quo is unsustainable and 
our patience is not unlimited.
    On chemical weapons, Russia has blocked every effort to 
compel the Assad regime to stop using chemical weapons. Russia 
too is a perpetrator of chemical weapons-use with its brazen 
assassination attempt against the Skripals in Salisbury, U.K. 
in March using a Novichok chemical agent.
    We recently imposed the first round of sanctions on Russia 
required by the Chemical and Biological Weapons Control and 
Warfare Elimination Act. We have been clear with Moscow that we 
will continue to execute our mandate under this law.
    Meanwhile, the United States and our NATO allies, as 
reinforced in the 2018 Brussels declaration, remain committed 
to preserving, strengthening, and modernizing the existing 
Euro-Atlantic conventional arms control regimes and confidence 
and security building mechanisms.
    The Department of State also continues to lead efforts to 
push back against Russia's troubling behavior in space. Of 
particular concern, Russia has launched experimental satellites 
that conduct sophisticated on-orbit activities, at least some 
of which are intended to advance counter-space capabilities.
    And finally, I would also note that our sanctions policy is 
an important tool in maintaining pressure on Moscow to abandon 
its malign activities. We assess that our global campaign to 
implement section 231 of the Countering America's Adversaries 
Through Sanctions Act of 2017, or CAATSA, has denied Russia's 
defense sector several billion dollars in lost sales as states 
abandon pending arms deals with Moscow. The Department of State 
remains committed to the ongoing full implementation of CAATSA 
section 231.
    In all, Russia's destabilizing actions include significant 
transgressions in its adherence to international obligations, 
namely, arms control treaties and agreements. This has created 
a trust deficit that leads the United States to question 
Russia's commitment to arms control as a way to manage and 
stabilize our strategic relationship and promote greater 
transparency and predictability. Russia must take its 
commitments more seriously if we are to find the ways to shift 
our relationship to a more stable path.
    Thank you for the opportunity to discuss these critical 
issues with you, and I look forward to your questions. Thank 
you.
    [The prepared statement of Ms. Thompson follows:]

             Prepared Statement of Hon. Andrea L. Thompson

    Chairman Corker, Ranking Member Menendez, and distinguished members 
of the Committee: thank you for hosting this hearing and welcoming me 
here today. The subject of this hearing --the state of arms control 
with Russia--is of critical importance to U.S. and allied national 
security, and a timely issue to discuss with the Committee today.
    The 2018 Nuclear Posture Review states, ``progress in arms control 
is not an end in and of itself, and depends on the security environment 
and the participation of willing partners.'' The value of any agreement 
is derived from our treaty partners maintaining compliance with their 
obligations, and avoiding actions that result in mistrust and the 
potential for miscalculation. Russia continues to violate a series of 
arms control obligations that undermine the trust the United States can 
place in treaties, including some that have served U.S. and allied 
security interests for years.
    We seek to utilize a strong military deterrent in combination with 
arms control to maintain strategic stability with Russia. Arms control 
measures have benefited the United States by providing mutual 
transparency and predictability, constraining certain weapons of 
immense destructive potential in the Russian arsenal, and enhancing 
strategic stability. The Department of Defense concluded in the 
National Defense Strategy, and as reflected in the Trump 
Administration's National Security Strategy, that great power 
competition is reemerging. We need to be creative and flexible in how 
we approach and manage our strategic competition with Russia, and that 
includes an evaluation of where we stand with respect to our arms 
control agreements, and their interrelationship with our deterrence and 
defense requirements.
    As you know, Russia has taken actions over the past few years that 
have posed real challenges to our bilateral relationship and widened 
the deficit of trust we have with Russia. Russia has used chemical 
weapons in the United Kingdom and tacitly approved of the Assad 
regime's abhorrent use of chemical weapons against its own people--even 
while protecting that regime from accountability for these atrocities. 
It has also violated its obligations under the INF Treaty and 
undertaken aggressive actions in outer space while proposing agreements 
to constrain others. Russia's response to each of these situations is 
to employ its standard playbook of distraction, misinformation, and 
counter-accusations. It has sought to blame the United Kingdom and 
other European countries for the Salisbury incident and supported 
Syrian claims alternatively blaming ``terrorists,'' Turkey, and the 
United States for Assad's years of chemical weapons use. Similarly, 
Russia has falsely accused the United States of not complying with the 
INF Treaty in order to distract from its own INF violation. The Trump 
Administration has challenged Russia's systematic misconduct a number 
of ways. However, it remains in our interest to maintain strategic 
stability with Russia, and continue arms control agreements that meet 
U.S. and allied national interests.
    I will briefly touch on a few key issues in our arms control 
relationship with Russia, and will close with a few remarks regarding 
the Department's implementation of Section 231 of the Countering 
America's Adversaries Through Sanctions Act of 2017.
            strategic arms control: new start and inf treaty
    I will start with the New START Treaty. The United States will 
continue to implement the New START Treaty and verify Russian 
compliance. We benefit from the Treaty's 18 annual on-site inspections 
of strategic nuclear warheads and delivery systems, bases, and 
infrastructure; the comprehensive biannual data exchanges which record 
the disposition and numbers of intercontinental ballistic missiles 
(ICBMs), submarine-launched ballistic missiles (SLBMs), and heavy 
bombers; and, the almost 16,000 notifications we have exchanged over 
the life of the Treaty which give us a good idea of where these nuclear 
weapons are at a given moment in time. The types of weapons that are 
accountable and limited under New START make up the gross majority of 
Russia's current and foreseeable strategic nuclear arsenal.
    We are committed to implementing the Treaty and ensuring Russia 
stays in compliance.
    In February of this year, both countries confirmed compliance with 
the Treaty's central limits on ICBMs, SLBMs, and heavy bombers and 
their associated warheads. I know this Committee has sought the Trump 
Administration's view of extending the Treaty. A decision has not been 
made at this time. Among issues to consider will be Russia's decision 
to manufacture compliance issues regarding U.S. weapons, and the 
uncertainty of whether or not Russia's recently announced strategic 
nuclear weapons will be held accountable under the Treaty. Any decision 
on New START will take into context Russia's stance on these issues, 
its behavior in other arms control agreements, and the security needs 
of the United States and its allies. And it goes without saying: 
Russia's continued compliance with New START is a requirement for any 
potential extension of the Treaty.
    Meanwhile, Russia has persisted in its violation of the INF Treaty 
through Russia's SSC8 ground-launched cruise missile program. The Trump 
Administration has utilized diplomatic, military, and economic measures 
to pressure Russia to return to compliance. On the diplomatic front, 
the Administration has sought dialogue with Russia, both at the expert 
level in the Special Verification Commission, the implementation body 
for the Treaty, and in bilateral formats, as well as raising the issue 
at the political level. We have worked closely with our allies and 
partners in Europe and in Asia to raise the profile of Russia's 
violation and continued noncompliance. In the area of military 
responses, the Department of Defense continues to pursue Treaty-
compliant research and development on a ground-based missile system 
that, if completed, would be noncompliant with INF. This system is 
designed to be a direct counter to Russia, and the United States has 
made it clear that we will cease pursuing its development if Russia 
returns to compliance with the Treaty. On the economic line of effort, 
the Administration added two entities involved in the SSC-8's 
development and production, Novator Design Bureau and Titan Central 
Design Bureau, to the Department of Commerce Entity List in December 
2017. This action imposes a license requirement for the export, re-
export, or transfer of any items subject to the Export Administration 
Regulations (EAR) to these entities. Any such license applications will 
be reviewed with a policy of presumption of denial. This prior review 
will enhance the U.S. ability to prevent the use of items subject to 
the EAR contrary to U.S. national security or foreign policy interests.
    The lack of any meaningful steps by Russia to return to compliance 
diminishes our hope that Russia has any interest in preserving the INF 
Treaty, despite Moscow's public statements to the contrary. Russia has 
not acknowledged its violation, although last year it acknowledged for 
the first time that the missile system in question exists. Russia has 
not attempted to negotiate in good faith and has done nothing to 
satisfy our concerns or those of our allies. This complete lack of 
willingness to engage in a meaningful manner leads us to conclude that 
Russia has no interest in returning to compliance, which presents a new 
threat to the security of our allies in Europe and Asia. The fact that 
the United States complies with the treaty and Russia does not is 
untenable.
             chemical weapons convention: syria and russia
    Regarding chemical weapons issues, Russia's destabilizing behavior 
is also evident. Russia has stood in the way of every effort the United 
States, our allies, and our partners have taken to compel the Assad 
regime to stop using chemical weapons. Russia's actions are a betrayal 
of the Chemical Weapons Convention (CWC) and UN Security Council 
Resolution 2118, as well as its commitments to the United States as a 
framework guarantor.
    Russia continues these obstructionist actions with current efforts 
to delegitimize the June 26, 2018 Decision of the Fourth Special 
Conference of the States Parties. Eighty-two responsible States voted 
to provide the OPCW Technical Secretariat with additional tools to 
respond to chemical weapons use, including the means to identify the 
perpetrators of chemical weapons attacks in Syria.
    Russia, too, is a perpetrator of chemical weapons use with its 
brazen assassination attempt against the Skripals in Salisbury, U.K., 
in March using a novichok chemical agent. Multiple British citizens 
have been exposed to this same substance as a result of this deplorable 
attack, one of whom ultimately died from exposure to the military-grade 
nerve agent. Independent reports issued twice by the OPCW, most 
recently on September 4, confirmed the U.K. assessment in identifying 
the chemical nerve agent, novichok. Russia's use of a novichok has made 
it extraordinarily clear that Russia only eliminated its declared 
chemical weapons stockpile and further substantiates the U.S. finding 
that Russia itself is in non-compliance with their obligations under 
the CWC. Rather than accepting responsibility for its actions and 
changing its harmful and destructive behavior, Russia offers only 
denials and counteraccusations to deflect attention from its 
culpability. No one, including Russia, should think they can murder 
people with chemical weapons and get away with it. As you know, we 
imposed the first round of sanctions on Russia required by the Chemical 
and Biological Weapons Control and Warfare Elimination Act of 1991. 
Following the fifteen day Congressional notification, these sanctions 
took effect on August 22nd. We have been clear with Moscow that we will 
continue to execute our mandate under this law and that it must take 
action to disclose its chemical weapons activities. We are under no 
illusion, however, that Russia will take the steps necessary to rescind 
these sanctions.
                       conventional arms control
    The United States and our NATO Allies, as reinforced in the 2018 
Brussels Declaration, remain committed to preserving, strengthening, 
and modernizing the existing Euro-Atlantic conventional arms control 
regimes and confidence and security building mechanisms. We remain 
concerned about specific compliance and implementation issues that 
limit full territorial access over Russia--a fundamental Treaty 
principle. While recently Russia has resolved one violation of its 
obligations, and has made overtures that suggest it could resolve 
another, Russia remains unwilling to lift its illegitimate limits on 
the distance Open Skies Treaty parties can fly over the strategically 
sensitive region of Kaliningrad. In September 2017, we made clear our 
commitment to addressing Russia's continued noncompliance with the 
Treaty when we established several reasonable, treaty-compliant 
measures designed to encourage Russia to resolve its violations. These 
measures are in effect and will impact any Russian flights over the 
United States; they will be reversed if Russia returns to full 
compliance.
    Despite efforts by the United States and our Allies to effect a 
reversal of Russia's 2007 decision to unilaterally ``suspend'' its 
implementation of the Conventional Armed Forces in Europe (CFE) Treaty, 
the status quo unfortunately persists. The United States does not 
recognize Russia's ``suspension'' of the CFE. We continue to hold 
Russia responsible for its obligations under the Treaty and, as a 
countermeasure, together with our Allies and partners have ceased 
implementing CFE vis-a-vis Russia. Russia's disregard for the Treaty's 
provision on host-nation consent for the stationing of military forces 
in places like Georgia, Moldova, and Ukraine is a destabilizing element 
that challenges the basic underpinnings of the existing Euro-Atlantic 
security architecture. Nonetheless, we believe the Treaty still 
provides valuable transparency about other military forces in Europe 
that are of interest to the United States and our Allies and partners.
    The United States continues to be a leading voice in the 
Organization for Security and Cooperation in Europe (OSCE). We are 
championing, along with many of our Allies, several proposals to 
modernize the 2011 Vienna Document (VDoc), politically-binding 
confidence and security building measures that contribute to openness 
and transparency concerning military forces in Europe. However, since 
2014, Russia has been increasingly exploiting gaps in the arrangement, 
especially with regard to large-scale, short-notice exercises and 
military activities near its borders. Furthermore, Russia has refused 
in recent years to engage on these issues and professes to see no 
current need for enhancing military transparency. The proposals for 
which we and our Allies are advocating aim to address these activities 
and increase military transparency. Our goal is to demonstrate the 
value of the VDoc and the commitment of a majority of OSCE 
participating States to fulfill existing VDoc measures and to improve 
the effectiveness of the VDoc to rebuild trust.
                             space security
    More recently, as the Director of National Intelligence noted in 
February of this year, Russia is continuing to pursue antisatellite, or 
ASAT, weapons as a means to reduce U.S. and allied military 
effectiveness. Russia aims to have nondestructive and destructive 
counterspace weapons available for use during a potential future 
conflict. The U.S. intelligence community assesses that, if a future 
conflict were to occur involving Russia, it would justify attacks 
against U.S. and allied satellites as necessary to offset any perceived 
U.S. military advantage derived from military, civil, or commercial 
space systems. Military reforms in Russia in the past few years 
indicate an increased focus on establishing operational forces designed 
to integrate attacks against space systems and services with military 
operations in other domains. In addition, Russian destructive ASAT 
weapons probably will reach initial operational capability in the next 
few years, and Russia probably has ground-launched ASAT missiles in 
development and is advancing directed-energy weapons technologies for 
the purpose of fielding ASAT weapons that could blind or damage 
sensitive space-based optical sensors, such as those used for remote 
sensing or missile defense.
    Of particular concern, Russia has launched ``experimental'' 
satellites that conduct sophisticated on-orbit activities, at least 
some of which are intended to advance counterspace capabilities. Some 
technologies with peaceful applications--such as satellite inspection, 
refueling, and repair--can also be used against non-cooperative 
spacecraft in a hostile fashion.
    These activities are occurring in spite of the fact that Russia is 
continuing to publicly and diplomatically promote international 
agreements on the nonweaponization of space and ``no first placement'' 
of weapons in space. However, the Russian proposals are crafted to 
allow Russia to continue their pursuit of space warfare capabilities 
while publicly maintaining that space must be a peaceful domain.
    The Department of State continues to lead efforts to push back 
against Russia's troubling behavior in space and its hypocritical 
proposals. As Assistant Secretary Poblete noted at the Conference on 
Disarmament in Geneva a little over a month ago, the Russian Ministry 
of Defense is undertaking outer space activities that appear contrary 
to the provisions of Russia's own draft treaty and its political 
commitment not to be the first to place weapons in outer space. She 
noted that, in October of last year, the Russian Ministry of Defense 
deployed a space object they claimed was a ``space apparatus 
inspector.'' But its behavior on-orbit was inconsistent with anything 
seen before from on-orbit inspection or space situational awareness 
capabilities, including other Russian inspection satellite activities. 
Russian intentions with respect to this satellite are unclear and are 
obviously a very troubling development--particularly, when considered 
in concert with statements by Russia's Space Force Commander who 
highlighted that ``assimilate[ing] new prototypes of weapons [into] 
Space Forces' military units'' is a ``main task facing the Aerospace 
Forces Space Troops.''
                            caatsa sanctions
    I would also note that our sanctions policy is an important element 
in maintaining pressure on Moscow to abandon its malign activities, and 
that Section 231 of the Countering America's Adversaries Through 
Sanctions Act of 2017, or CAATSA, is an important tool in our sanctions 
toolkit and in our strategic competition with Russia. Arms sales are 
not only an important source of revenue for Moscow, but also a means of 
maintaining or growing its political and military influence around the 
world. Ending those sales not only applies pressure to Russia to change 
its behavior, but also helps to curb Russia's access in places where it 
seeks to maintain or forge such ties. By mandating sanctions on those 
who are engaging in significant transactions with Russia's defense and 
intelligence sectors, CAATSA provides us with leverage in working with 
our partners and allied states, so that they reduce their military ties 
to Russia, a country that has become an increasingly unreliable and 
risky security partner. Thus far, we assess that our global campaign to 
implement CAATSA has denied Russia's defense sector several billion 
dollars in lost sales as states abandon pending arms deals with Moscow. 
The Department of State remains committed to the ongoing full 
implementation of CAATSA Section 231, including through the imposition 
of sanctions as appropriate.
                               conclusion
    In all, the destabilizing actions Russia has taken are not isolated 
to interference in the domestic affairs of the U.S. and allies, its 
activities in Ukraine and Syria, or threatening our allies and partners 
in Russia's near-abroad, but include significant transgressions in its 
adherence to international obligations--namely, arms control treaties 
and agreements. The value of any agreement to the United States is 
derived from our treaty partners maintaining compliance with their 
obligations, and avoiding actions that result in mistrust and the 
potential for miscalculation. Russia, unfortunately, has created a 
trust deficit that leads the United States to question its commitment 
to arms control as a way to manage and stabilize our strategic 
relationship and promote greater transparency and predictability in how 
our countries address weapons of mass destruction issues and policies. 
The more benign environment of much of the post-Cold War period allows 
us to see that there was a better, more effective way to exist than 
merely relying solely upon massive nuclear armaments, with huge risks 
for miscalculation and accidental conflict. Russia's actions in recent 
years raise the specter of a return to the ugly years of cutthroat arms 
competition. I hope Russia can be reminded of these lessons in the near 
future so we can find ways to shift our relationship to a more stable 
path. I thank you for convening this important hearing, and look 
forward to your questions.

    The Chairman. Thank you.

STATEMENT OF HON. DAVID J. TRACHTENBERG, DEPUTY UNDER SECRETARY 
OF DEFENSE FOR POLICY, U.S. DEPARTMENT OF DEFENSE, WASHINGTON, 
                               DC

    Mr. Trachtenberg. Chairman Corker, Ranking Member Menendez, 
and distinguished members, thank you for the opportunity to 
testify on the current state of arms control with Russia.
    I will not repeat much of what Under Secretary Thompson has 
already discussed. The bottom line is that arms control with 
Russia is troubled because the Russian Federation apparently 
believes it need only abide by the agreements that suit it. As 
a result, the credibility of all international agreements with 
Russia is at risk.
    The United States is committed to its long-held arms 
control, nonproliferation, and nuclear security objectives, 
particularly our commitment to the goals of the Treaty on the 
Non-Proliferation of Nuclear Weapons.
    Arms control can contribute to U.S. security by helping to 
manage strategic competition among states, and we are committed 
to meaningful arms control that decreases the chances of 
misperception, miscalculation, and conflict.
    The Nuclear Posture Review acknowledges that progress in 
arms control is not an end in and of itself. The current 
security environment makes arms control extremely challenging 
in the near term. Any future arms control arrangement must be 
pursued in the context of the broader security environment and 
must include the participation of willing partners. It is 
difficult to envision progress in a security environment that 
is currently threatened by Russia's continuing noncompliance 
with existing arms control obligations and commitments. In this 
regard, Russia poses a series of challenges that do not lend 
themselves to conditions suitable for the greater trust 
necessary to engage in a prudent arms control agenda.
    It would be irresponsible to ignore these infractions and 
not hold Russia responsible for its violations. As a reliable 
ally and partner, the United States must advocate for arms 
control agreements that make the world more secure and include 
the willing participation and compliance of all parties.
    With respect to New START, the United States assesses that 
Russia is in compliance with the New START treaty. Both sides 
met the New START treaty's central limits in February of this 
year, and I can assure you that the United States will 
faithfully implement and verify Russian compliance with the 
treaty.
    Moving forward, the United States will consider whether to 
extend the New START treaty beyond its February 2021 
expiration. Any decision on extending the treaty will and 
should be based on a realistic assessment of whether the New 
START treaty remains in our national security interest in light 
of overall Russian arms control behavior.
    On INF, the Russian Federation remains in violation of its 
obligations under the INF Treaty. We have been more than 
patient and have provided Russia with ample opportunities to 
come back into compliance, but to no avail.
    This administration's determination of Russia's violation 
is no different than the one first announced in July of 2014. 
We reviewed the intelligence and came to the same conclusion as 
our predecessors. The evidence is conclusive. The violation is 
real, and it goes against the core purpose and restrictions of 
the INF Treaty.
    This administration has sought to preserve the viability of 
the treaty by applying pressure on Russia to return to 
compliance with its obligations. We believed it was in the 
national security interest of the United States and in our 
allies' and partners' interest to preserve the INF Treaty, but 
we recognize that Russia ultimately would determine whether the 
INF Treaty remains viable.
    One thing is certain. We cannot allow our treaty partner to 
continue to violate a core tenet of the INF Treaty 
indefinitely. And we will not let our actions or inaction occur 
at the expense of our security or that of our allies and 
partners.
    For the last year, the Department of Defense has reviewed 
and evaluated systems it could develop if it were not 
constrained by the INF Treaty. The identification of these 
capabilities seeks to remind Russia of why it entered into the 
INF Treaty in the first place. We appreciate the efforts of 
Congress to help the Department of Defense implement these 
research and development efforts.
    Regardless of whether Russia returns to compliance with the 
INF Treaty, there are broader implications for the future of 
arms control due to the lack of trust that has been created by 
Russia. It is difficult to envision a way forward for the 
United States and Russia to rebuild that trust and achieve a 
level of transparency that could lead to a brighter future for 
arms control. The onus to create the conditions for this trust 
falls on both the United States and Russia, but Moscow will 
bear the burden should these efforts fail as Russia's actions 
created the situation we currently find ourselves in.
    Mr. Chairman, we appreciate the opportunity to testify, the 
attention of this committee and the rest of Congress to these 
issues, and we will keep you informed of developments.
    Thank you again, and I look forward to your questions.
    [The prepared statement of Mr. Trachtenberg follows:]

            Prepared Statement of Hon. David J. Trachtenberg

    Chairman Corker, Ranking Member Menendez, and distinguished 
members, thank you for the opportunity to testify on the current state 
of arms control with Russia.
      russian compliance with arms control treaties and agreements
    I will not repeat much of what Under Secretary Thompson has already 
discussed: the bottom-line is that arms control with Russia is troubled 
because the Russian Federation apparently believes it need only abide 
by the agreements that suit it. As a result, the credibility of all 
international agreements with Russia is at risk.
    The United States is committed to its long-held arms control, non-
proliferation, and nuclear security objectives, particularly our 
commitment to the goals of the Treaty on the NonProliferation of 
Nuclear Weapons (NPT).
    Arms control can contribute to U.S. security by helping to manage 
strategic competition among states, and we are committed to meaningful 
arms control that decreases the chances of misperception and 
miscalculation and avoids destabilizing arms competition. To advance 
our national security objectives, the United States supports effective 
arms control that is verifiable, enforceable, and consistent with U.S., 
allied, and partner security objectives. We are committed to complying 
with our arms control obligations, and we remain open to considering 
future arms control opportunities that advance U.S. security interests.
    However, the Nuclear Posture Review also acknowledges that progress 
in arms control is not an end in and of itself. The current security 
environment makes arms control extremely challenging in the near term. 
Any future arms control arrangement must be pursued in the context of 
the broader security environment and must include the participation of 
willing partners. It is difficult to envision progress in a security 
environment that is currently threatened by Russia's continuing non-
compliance with existing arms control obligations and commitments. In 
this regard, Russia poses a series of challenges that do not lend 
themselves to conditions suitable for the greater trust necessary to 
engage in a prudent arms control agenda.
    The Russian Federation remains in violation of the Intermediate-
range Nuclear Forces (INF) Treaty. It is also either rejecting or 
avoiding its obligations under the Conventional Armed
    Forces in Europe Treaty, the Budapest Memorandum, the Helsinki 
Accords, and the Presidential Nuclear Initiatives. In addition, Russia 
remains in violation of the Open Skies Treaty and is selectively 
implementing the Vienna Document.
    It would be irresponsible to ignore these infractions and not hold 
Russia responsible for its violations. As a reliable ally and partner, 
the United States must advocate for arms control agreements that make 
the world more secure and include the willing participation and 
compliance of all parties.
              russian compliance with the new start treaty
    The United States assesses that Russia is in compliance with the 
New START Treaty because it values the predictability and transparency 
it provides, and also because Russia finds the agreement to be in its 
interest. Both sides met the New START Treaty's Central Limits in 
February 2018, and I can assure you the United States will faithfully 
implement and verify Russian compliance with the treaty.
    Moving forward, the United States will consider whether to extend 
the New START Treaty beyond its February 2021 expiration. Many factors 
will affect this decision, and there are two I want to talk about 
today.
    The first is Russia's broader approach to arms control. This 
Administration is concerned about Russia's violations of other 
agreements and Moscow's lack of will to address these concerns. As the 
Nuclear Posture Review made clear, the United States take seriously its 
role in preserving the value of meaningful arms control, and will only 
enter into and remain in arms control agreements when they further our 
national security interests in an increasingly complex security 
environment. Any decision on extending the Treaty will, and should be, 
based on a realistic assessment of whether the New START Treaty remains 
in our national security interest, in light of overall Russian arms 
control behavior.
    A second factor is Russia's nonstrategic nuclear weapons, which are 
not captured under any treaty. Russia is modernizing its active 
stockpile of up to 2,000 non-strategic nuclear weapons--this is many 
times the number of U.S. non-strategic nuclear weapons. The 2018 
Nuclear Posture Review recommends countering this threat by advocating 
pursuit of two supplemental capabilities: the low-yield ballistic 
missile warhead and the nuclear sea-launched cruise missile. We have 
opened the door to future arms control discussions with Russia by 
stating that we would consider forgoing development of the nuclear sea-
launched cruise missile if Russia is willing to engage in meaningful 
discussion on non-strategic nuclear arms control.
                 russian compliance with the inf treaty
    The Russian Federation remains in violation of its obligations 
under the INF Treaty not to possess, produce, or flight-test a ground-
launched cruise missile with a range capability of 500 to 5,500 
kilometers, or to possess or produce launchers of such missiles. This 
is a conclusion reached by the previous administration more than four 
years ago and remains the case today. We have been more than patient 
and have provided Russia with ample opportunities to come back into 
compliance, to no avail.
    We have worked in diplomatic channels to urge Russia to preserve 
the INF Treaty. We have sought answers to our questions at all levels, 
but have received no meaningful response. Russia denies any wrongdoing 
but offers no explanation in response to the evidence we have presented 
to Russian officials. Instead, it levies false counter-accusations 
against the United States in an effort to deflect the world's attention 
from its violation.
    This Administration's determination of Russia's violation is no 
different than the one first announced in July 2014. We reviewed the 
intelligence and came to the same conclusion as our predecessors. The 
evidence is conclusive. Russia possesses a missile system, the SSC-8, 
in direct violation of the INF Treaty. Russia has tested this ground-
based system well into the ranges covered by the INF Treaty, produced 
it, and fielded it. The violation is real, and it goes against the core 
purpose and restrictions of the INF Treaty.
    In responding to this gross breach of the Treaty, this 
Administration has sought to preserve the viability of the INF Treaty 
by applying pressure on Russia to return to compliance with its 
obligations. We believed it was in the national security interest of 
the United States and in our allies and partners' interest to preserve 
the INF Treaty, but we recognized that Russia ultimately would 
determine whether the INF Treaty remains viable. Our response has also 
focused on preparing the United States for a world without the INF 
Treaty. We would prefer that Russia cease its noncompliant activity, 
and eliminate all INF Treaty-prohibited missiles and launchers in a 
verifiable manner. By doing so, it can preserve the INF Treaty. One 
thing is certain. We cannot allow our Treaty partner to continue to 
violate a core tenet of the INF Treaty indefinitely, and we will not 
let our actions or inaction occur at the expense of our security or 
that of our allies and partners.
    department of defense response to russia's inf treaty violation
    For the last year, the Department of Defense has reviewed and 
evaluated systems it could develop if it were not constrained by the 
INF Treaty. This is the Department of Defense's (DoD's) portion of the 
U.S. Integrated Strategy implemented in the last half of 2017 to 
respond directly to Russia's violation of the INF Treaty. DoD has 
identified a number of conventional ground-launched capabilities that 
it could develop if no longer bound by the INF Treaty--as a means to 
pressure Russia to return to compliance with its obligations. The 
identification of these capabilities seeks to remind Russia of why it 
entered into the INF Treaty in the first place. Such systems could also 
fill potential gaps in our military capabilities caused, in part, by 
Russia's violation. The INF Treaty prevents us from possessing and 
testing these types of missile systems, and we have no intention of 
doing so while the United States is still bound by the INF Treaty, but 
it does not prevent us from conducting general research and 
development. We cannot sit idle while Russia makes a mockery of 
international agreements at the expense of our security and that of our 
allies and partners.
    We appreciate the efforts of Congress to help the Department of 
Defense implement these research and development efforts. Together, we 
are sending a strong message to Russia and any other country violating 
its obligations: Your actions will result in consequences that will 
make you less secure, not more. Not complying with agreements 
unilaterally may provide you some short-term gain, but it will result 
in long-term costs.
    Regardless of whether Russia returns to compliance with the INF 
Treaty, there are broader implications for the future of arms control 
due to the lack of trust that has been created by Russia. It is 
difficult to envision a way forward for the United States and Russia to 
rebuild that trust and achieve a level of transparency that could lead 
to a brighter future for arms control. The onus to create the 
conditions for this trust falls on both the United States and Russia, 
but Russia will bear the burden should these efforts fail, as Russia's 
actions created the situation we currently find ourselves in. We 
support the State Department's ``Creating the Conditions for Nuclear 
Disarmament'' approach, which aims to develop ``effective measures'' to 
increase confidence and trust, thus beginning to create the conditions 
for future arms control.
         russian non-compliance with conventional arms control
    Russia also continues to violate or avoid its obligations with 
regard to conventional arms control agreements and confidence and 
security building measures. Most fundamentally concerning is Russia's 
continued occupation and illegal annexation of Crimea in 2014, as well 
as its arming, training, and fighting alongside anti-government forces 
in eastern Ukraine. These actions undermine the most basic principles 
of the Helsinki Final Act, which are reaffirmed in the Vienna Document.
    Russia selectively implements the Vienna Document, and has both 
failed to report required data about its military forces located in the 
occupied territories of Georgia and Ukraine, and has improperly 
reported and failed to report major land and air equipment. Since 2015, 
Russia has also blocked reasonable updates to the Vienna Document that 
would provide basic transparency on its exercises.
    Russia also continues to be in violation of its obligations under 
the Treaty on Conventional Armed Forces (CFE) in Europe. There remains 
no CFE Treaty basis for Russia's 2007 suspension of CFE Treaty 
implementation.
    Finally, Russia remains in violation of its Open Skies Treaty 
obligations. The United States and other treaty parties have engaged in 
years of diplomatic efforts with Russia to resolve concerns about its 
non-compliance, but to no avail. In June 2017, the United States 
declared Russia in violation of the Open Skies Treaty and in September 
2017 imposed a number of Treaty-compliant, reversible response measures 
to encourage Russia's return to full compliance with its Treaty 
obligations. Those efforts continue today, with the support of our 
allies and partners.
                               conclusion
    We appreciate the attention of this Committee and the rest of the 
Congress to these issues, and we will keep you informed of 
developments. Thank you for the opportunity to testify. I look forward 
to your questions.

    The Chairman. Thank you both for your opening comments and 
your service.
    As is the norm, I am going to turn to our ranking member 
and withhold my time for interjections. Thank you.
    Senator Menendez. Thank you. And, Mr. Chairman, before I go 
to questions, I just want to make a comment.
    The question of how we wrote DASKAA as not for just 
jurisdictional purposes. It was written in a way to be 
comprehensive enough to deal with all of Russia's malign 
activities. So I do not want you to think that it was just a 
strategic purpose.
    Let me just ask both of you. On the topic of arms control, 
can you tell us what was discussed during the 2-hour closed 
meeting with President Trump and President Putin?
    Ms. Thompson. Thank you, Senator.
    I cannot tell you the specifics of what was discussed in 
Helsinki. I can tell you that arms control was a topic of 
conversation.
    We have since had dialogue with our Russian counterparts 
last month, in August. NSA Bolton met with his counterpart. 
Foreign Minister Lavrov and Secretary Pompeo have had multiple 
discussions, and I have had discussions as well. So arms 
control remains a dialogue----
    Senator Menendez. As the Russian Ambassador said, verbal 
agreements. Did verbal agreements get entered into, and if so, 
what are they?
    Ms. Thompson. I am not aware of any agreements other than 
continuing to dialogue, Senator.
    Senator Menendez. So it was discussed. And you know this by 
virtue of what?
    Ms. Thompson. I know it was discussed based on feedback 
through senior representatives in the State Department.
    Senator Menendez. Senior representatives. Can you define 
that for me?
    Ms. Thompson. Discussions of those that were in attendance 
at the debrief with Ambassador Huntsman.
    Senator Menendez. Let me ask, is there anything different 
that you can add to that, Mr. Trachtenberg?
    Mr. Trachtenberg. No, Senator. I am unaware of any 
agreements that were reached.
    Senator Menendez. Do you agree that Congress has given the 
directive that links our nuclear modernization program with 
maintaining a strategic arms control process?
    Mr. Trachtenberg. I agree that both are indeed important.
    Senator Menendez. But do you agree that Congress has 
basically set that forth as a link?
    Mr. Trachtenberg. I agree that that was part of the 
discussion in the ratification debate over the New START 
treaty----
    Senator Menendez. If New START disappears and the 
limitations on Russian forces lapse, what would the 
implications be for U.S. national security and that of our 
allies?
    Mr. Trachtenberg. I am sorry, Senator.
    Senator Menendez. If New START disappears and the 
limitations on Russian forces lapse, what would be the 
implications for U.S. national security and that of our allies?
    Mr. Trachtenberg. From the Department of Defense 
perspective, I can tell you that that is one of the issues that 
we are currently considering both within the interagency and 
with our allies and partners as well.
    Senator Menendez. But you cannot give this committee at 
this point in time any sense of the consequences of that?
    Mr. Trachtenberg. I would say, Senator, that the issue of 
New START, which runs until 2021, is an issue that we are very 
much engaged in in terms of consultations and in terms of 
implications. You are exactly correct----
    Senator Menendez. So would we require a much larger and 
more expensive force?
    Mr. Trachtenberg. I cannot say that at this time.
    Senator Menendez. Wait a minute. This worries me. The 
Department of Defense is the one that always supposedly plans 
ahead. They do not wait for a situation to happen and then 
figure out what you are going to do. So you must be thinking as 
a contingency that if New START lapses and there is no follow-
on, clearly to say--what do we do then? You do not believe that 
it would require a larger and more expensive nuclear force?
    Mr. Trachtenberg. Senator, the implications of whether New 
START continues or whether it lapses are still under 
discussion. The Department of Defense plans for all kinds of 
contingencies and considers----
    Senator Menendez. I find it incredible that you cannot tell 
this committee at this point in time what the possibilities 
would mean. I do not think it takes a rocket scientist to 
figure that out.
    Let me ask you, Ms. Thompson. Let me go through a series of 
statements here.
    In congressional testimony, senior military officials such 
as Air Force General John Hyten, the Commander of the U.S. 
Strategic Command responsible for all nuclear forces, and Vice 
Chairman General Paul Silva, Vice Chairman of the Joint Chiefs 
of Staff, have voiced enthusiastic support for the New START 
treaty.
    So let me go through a series of questions. If you can just 
give me a simple yes or no.
    Can the United States meet all of our current deterrence 
requirements with a force at or slightly below the levels of 
the New START treaty? Yes or no?
    Ms. Thompson. We are currently meeting obligations, 
Senator.
    Senator Menendez. I am sorry?
    Ms. Thompson. We are currently meeting our obligations.
    Senator Menendez. So the answer is yes, that we can meet 
our requirements with a force at or slightly below the levels 
of the New START treaty.
    Ms. Thompson. Again, Senator, we have met our central 
limits, and so we are meeting our obligations.
    Senator Menendez. But, you know, the reason we have 
witnesses here is to give us answers to the questions that we 
pose. That is not the question I posed to you.
    Let me try another one. These are relatively simple.
    Does the New START treaty force the United States to cut 
back any of our current nuclear modernization efforts? Yes or 
no?
    Ms. Thompson. I would say no.
    Senator Menendez. Thank you.
    Now, does this New START treaty limit in any way our 
missile defenses? Yes or no?
    Ms. Thompson. I would defer to the Department of Defense, 
sir.
    Mr. Trachtenberg. No, Senator. It does not.
    Senator Menendez. Do you agree that the New START treaty 
meets the standard put forward in the Nuclear Posture Review 
for arms control treaties and that it fosters transparency, 
understanding predictability in relations with Russia, thereby 
reducing the risks of misunderstanding and miscalculation?
    Mr. Trachtenberg. I would say the transparency and 
verification requirements in the New START treaty are a 
benefit.
    Senator Menendez. Okay. Let me try one more time. My time 
has expired.
    Do you believe that it meets the standard--the New START 
treaty meets the standard put forward in our Nuclear Posture 
Review?
    Mr. Trachtenberg. Senator, I believe it meets the 
requirements we have today.
    Senator Menendez. Well, thank you.
    The Chairman. I am going to use the first minute of my time 
to say that having written the two amendments myself with both 
missile defense and modernization, that there was a connection. 
In the resolution of ratification, we made sure that while we 
were going to reduce the amount of warheads and our ability to 
deliver them, we also wanted to modernize because there was a 
huge savings in not keeping this massive inventory spread 
throughout our country and not knowing whether they actually 
operate or not, a huge savings in going ahead and modernizing. 
So the two worked hand in hand.
    We passed those amendments on the floor. I actually gave 
other people's names on them trying to draw them onto the 
treaty, in some cases successful; in some cases, not.
    But there was no doubt a tie between the two, and it has 
been very important. The essence of this is that the 
modernization piece and the reduction in warheads piece go hand 
in hand. So I mean, I think that is self-evident and has been 
central to the entire agreement.
    With that, Senator Paul.
    Senator Paul. Thank you for your testimony.
    Ms. Thompson, you mentioned that there are ongoing 
discussions with the Russians both at your level and the level 
of the National Security Council Director, as well as the 
Secretary of State.
    Do we also have some sort of permanent organization? Did 
the treaty set up some kind of structure where there is ongoing 
like--where each side can express their contention that the 
other side is in violation of treaty? Is there an actual body 
of people who meet regularly?
    Ms. Thompson. There are, Senator. For example, with the INF 
Treaty, we have had, during my time here, one experts meeting. 
During the course of the administration, there have been two 
experts meetings. We have the BCC, or the Bilateral 
Consultative Commission, that gets together on the New START. 
So each treaty has an organization of experts within our 
respective governmental representatives that meet.
    Senator Paul. So when we brought forward--and are these 
separate sort of agencies or entities? Does the INF Treaty 
organization have one for disputes and then New START has one? 
Are they different? Is it all together, or how does it work?
    Ms. Thompson. For the State Department, those 
representatives all come under my purview in different bureaus, 
but their experts reside within the State Department, also with 
partners with DOE, Department of Defense as well.
    Senator Paul. So you said you met once in the last year--
that group?
    Ms. Thompson. For the INF experts meeting.
    Senator Paul. And then there will be another meeting coming 
up that is scheduled, or what?
    Ms. Thompson. Yes, sir. They are fairly regular, regular in 
the sense that some of the treaties are annually, some are 
biannually, some are in conjunction with other conferences. But 
we have an open line of communication for each of the treaties.
    Senator Paul. So we believe them to be in violation of the 
INF Treaty. They also complain and say some of our launchers 
are in violation as well.
    Ms. Thompson. That is correct.
    Senator Paul. Do you think that this can be worked out 
through discussion, that we are at a point where there could be 
a resolution of these things, that both sides might have to 
give a little bit on this? Or do we just acknowledge that there 
is no way we are in violation of anything?
    Ms. Thompson. We have not had progress thus far. I would 
say that we have an interagency process that is looking through 
that now on what are some of the options that we have 
available.
    Senator Paul. But it seems to me--and a lot of this is very 
detailed whether or not something technically is in violation 
or not--that it seems like an openness to having an ongoing 
discussion is important.
    Now, both of you acknowledged that the New START treaty we 
are in compliance with. And yet, both of you--it seemed to be 
the tenor is that you are very concerned could we even go 
forward because they are in violation of so many other 
treaties, the INF, etc.
    And I guess my only concern is that with the Iran 
agreement, everybody kept saying they are in compliance with 
the Iran agreement. Iran is in compliance. But we were still 
unhappy about other things Iran was doing. And I think there 
are some similarities here. Many of us think the New START 
treaty was an advantage and that it brought down the threat of 
nuclear weapons--we have less nuclear weapons--and that there 
were good things that came from New START. I guess my concern 
is that we could be throwing all of that out and saying, well, 
they are violating the INF or they are violating this, you 
know, Conventional Forces Treaty and all these other treaties, 
and we do not like all the stuff they are doing, which is true. 
But I worry that we then just throw the New START treaty out.
    And so I hope that people will think about--we try to get 
the best that we can and we negotiate from a position of 
strength. But I am concerned that we would just say, simply, 
just start over. And it is not always that easy. I think the 
Iran agreement will actually be very difficult to start again 
from the very beginning. You know, instead of starting with 
what are we complying on and going to our differences, let us 
don't throw everything out. Let us start with what we are 
complying on. If New START is working, maybe we then look at 
the INF.
    That is the only caution that I would have in looking at 
this and also just to say that, at least our office, we are 
very interested in what goes on with these and would like to 
have you come in and talk to some more to us about how the 
meetings are going, what the differences are, and what the 
possibilities of resolving things are.
    Thank you.
    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Let me thank our witnesses.
    Ms. Thompson, I think the understatement in your written 
statement about Russia has taken actions over the past few 
years that have posed real challenges to our bilateral 
relationship and widened the deficit of trust we have Russia. I 
think all of us would say that that is a major concern.
    And we look at our relationship with Russia on the nuclear 
front, and we recognize that New START gives us the opportunity 
to do the inspections not only on active sites but also those 
sites that are not active. So we really do get to see with our 
own people what is going on in Russia, which is extremely 
valuable.
    We also have the fact that Russia is in compliance, we are 
in compliance with the New START treaty.
    And then as Senator Paul has said, we know in INF that 
Russia is in violation with what they have developed on land-
based missiles. And you are using the enforcement mechanisms 
under the INF and diplomacy, which I strongly agree, and not 
withdrawing from the INF, which I think would be a disaster 
because it would only isolate us more from what Russia is 
doing. And we have taken countermeasures through a submarine-
based defense system in regards to what Russia is doing on 
land. So we are taking our steps in compliance with the INF in 
order to make sure that we are secure.
    My point is that in response to Senator Menendez's 
question, I was surprised that I did not hear a stronger 
statement as to the national security importance of both the 
New START and INF. We know North Korea has a nuclear program. 
What we do not know is the specifics because we do not have 
inspections. We do not have eyes on the ground. We do not know 
exactly what is going on in that country.
    And, yes, we have international inspections now of Iran, 
but not with the United States' participation. So we are 
somewhat limited in understanding what is going on in Iran.
    But at least with Russia, we have that capacity to 
understand their program because of the New START treaty.
    We know this administration has a way of surprising us at 
times with statements made by the President. So that is one of 
the reasons we had this hearing.
    So I would like to get both of your views as to the 
national security importance to the United States in these 
tough times with Russia to be able to get our inspectors over 
in Russia working with theirs, understanding their nuclear 
program, the importance of that to the United States national 
security.
    Mr. Trachtenberg. Senator Cardin, if I could.
    As I stated, I do believe that the verification and 
monitoring and onsite inspection provisions provide a level of 
openness and transparency that is useful and beneficial not 
just to the United States but to our allies as well.
    That said, what I find particularly troubling is the 
overall nature of Russian arms control behavior and what the 
Russians seem to be doing in terms of selectively complying 
with various provisions of treaties and selectively non-
complying with others when they feel it is not in their 
interest. It is that overall kind of behavior that I think from 
a national security perspective we at least need to consider.
    Senator Cardin. I do not disagree with that at all. I agree 
with what you are saying.
    My concern is that sometimes we do knee-jerk reactions in 
this administration and that if we give up our ability to be 
able to have our inspectors in Russia, because of a violation 
of the INF, it leads to the end of New START. I think it is not 
in our national security interest to do that. And I was hoping 
to get a little bit broader of a response from you as to the 
importance of our current relationship with Russia on nuclear 
as it relates to the transparency that you referred to, which 
is clearly in our interest.
    We can counter their violations without pulling out of the 
agreement. We have already done that in INF. Modernization 
programs, as the chairman pointed out--we can still do that. We 
can do our missile defense, and we are not in violation of New 
START or INF. So we can stay in compliance with the treaties 
without pulling out.
    Yes, we are not satisfied where Russia is today. We have 
mechanisms to try to counter that through direct enforcement 
mechanisms within the agreements, as well as our own nuclear 
program and our own defense programs, in order to counter what 
Russia is doing. Is that not a fair statement?
    Mr. Trachtenberg. I think you are exactly correct that we 
do have mechanisms, indeed. Where I might differ somewhat, 
Senator, is I believe we are taking a deliberate approach to 
our assessment of all of these treaties, including the New 
START treaty. I do not see this as a rush to judgment on the 
part of the administration's perspective on this. And I think 
it is perfectly legitimate and appropriate for us to weigh all 
of the potential--look at all of the potential implications.
    Senator Cardin. I agree with you, but we have a specific 
responsibility as an independent branch of government and this 
committee particularly on foreign policy. And I think the 
American people need to understand how important these treaties 
are to our national security.
    And I respect that you are going through a deliberative 
process. I really do. But we have seen this administration do 
things that have not been under a deliberative process, 
decisions made by our President. And it is important that we 
have a publicly established record as to the importance of 
these treaties as it relates to America's national security. 
And I wish you would be a little bit bolder as to the 
importance of us maintaining those types of relationships.
    The Chairman. Thank you.
    Senator Isakson.
    Senator Isakson. I want to follow up on what Senator Cardin 
just said and Senator Menendez a minute ago because I think 
this is an important point. It is for me.
    When I came to the Senate and came to the Foreign Relations 
Committee, the first legislation of any import at all was the 
New START treaty, and I got very involved in it because of, I 
think, the responsibility it put on me because of everything 
else we dealt with, that was the most important thing we could 
do: arms control, verification, limitations of arms with us and 
Russia. And so I got really into the weeds, probably too deep 
for a real estate salesman to be able to comprehend. But I did 
anyway.
    And I finally voted for it, and I did so because it was 
clearly evident there was no other agreement that we were into 
with any other adversary or potential adversary or ally in the 
world that had better verification, better mandated access for 
the United States of America, and better access for them than 
us. Am I right on that?
    Ms. Thompson. I would agree with that, Senator.
    Senator Isakson. I want to carry that forward.
    When we did this--the mess we did with Iran here that, as 
Ben said, did not have any verification, or the verification 
said we could not verify on military bases and things of that 
nature. It had gaping holes in it, which is why I voted against 
it or wanted to vote against it because it just did not add 
anything to our country's security whatsoever. It diminished it 
in comparison to what we agreed to with Russia on the START 
treaty.
    So my point is--and I understand, Secretary, you do not 
want to give away negotiating positions with the Russians. When 
you answer his question or my question about the START treaty, 
you do not want to say anything that would cede a point you 
might have to negotiate in negotiations.
    But I too agree with what he said. We ought to be a little 
bit more pro continuing the benefits the START treaty gives us 
rather than getting the idea there might be some way we can get 
out of it because I think knowledge and access is tremendous. 
We have no-notice access. We have Russians in the United States 
who have access to come inspect our sites, us in Russia. We 
have a unique hologram system on the warheads so we can count 
the warheads and what they can do and where they are. We can 
catch them. They can catch us.
    I mean, if we had insisted at the table with the Iranians, 
we have a treaty on nuclear weapons with Russia, the two 
largest nuclear powers in the world. We want to put those 
verifications in our agreement with you, Iran. Iran, you will 
be able to inspect ours and we want to be able to come in and 
inspect yours, unfettered. There was a perfect predicate to do 
that. Secretary Kerry decided not to do it in that way, but it 
would have been a great way to get that foot in the door.
    So all I am trying to say is when you get worried about 
compromising your future by talking about what you might get 
out of if you did not like it, you run the risk of letting them 
think they could get out from under the responsibility it puts 
on them, and they would be a lot more willing to take advantage 
of it than we would. I just wanted to make that point.
    Second point. I would like both of you to answer this 
question. On the Space Force, when the Vice President announced 
the Space Force and the President announced the Space Force--
and you acknowledged some of the experimentation the Russians 
have done in space of a defensive nature, but potentially 
offensive as well--would you equalize the Space Force 
enthusiasm that you have seen so far in our government today to 
be equal to what was the missile defense system of the Reagan 
administration?
    Mr. Trachtenberg. Senator Isakson, I do not think we are 
currently considering a missile defense capability similar to 
what was proposed during the Reagan administration.
    But in terms of the Space Force, the Department of Defense 
is certainly committed to going forward and implementing the 
vision expressed by the President and the Vice President also 
in terms of moving out expeditiously and appropriately to 
develop those capabilities given the importance of space to our 
national defense.
    Senator Isakson. I was hoping that was going to be your 
answer because when you had addressed it in your remarks--and I 
have seen some of the other pieces and read some of the stuff 
about it--the Space Force is the modern day answer to the 
missile defense system that Reagan used. Reagan used missile 
defense as an idea for the future. It scared the hell out of 
the Russians and in fact led to their spending on defense, 
which put them in the difficulty they fell into in the early 
1990s when they did it.
    So I think having the Space Force recognized as a future 
addition to our defense or offense militarily and 
diplomatically is as equally good a potential tool as missile 
defense was in its infancy and has been since. And I applaud 
the administration's boldness in doing that, and I hope it will 
be something that is a meaningful tool and not a paper tiger.
    With that, I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman, thank you both 
for being here to testify this morning.
    I want to go back to the INF Treaty because you both 
pointed out Russia's violation. I agree with Senator Cardin's 
point that it is not in our interest to withdraw from the INF 
Treaty. I do not think that helps solve the Russia problem.
    But what other options are being considered to try and push 
the Russians to again comply with the INF Treaty? Are there 
things that you can talk about that have been looked at that we 
might not yet have tried?
    Ms. Thompson. Thank you, Senator.
    I can assure you that we have used diplomatic means. We 
have used economic means. Through DOD, we have used military 
means to try to wield them back into compliance, fulfill their 
obligations that they set out when they signed the treaty.
    Senator Shaheen. So can you discuss the specifics of what 
those diplomatic and military means are?
    Ms. Thompson. I would prefer to tell you that we are in an 
interagency process now and looking at it holistically 
throughout the Russia strategy. I would not want to get into 
specifics as yet because we are still in the developmental 
stages of that.
    Senator Shaheen. And so do I take from that that we are 
actually considering options that have not been tried yet?
    Ms. Thompson. Yes, ma'am. That would be a fair assessment.
    Senator Shaheen. The Nuclear Posture Review--I guess this 
is for you, Ambassador Trachtenberg. It claims that the other 
nuclear armed states have modernized their nuclear arsenals far 
more extensively than the United States so that both China and 
Russia have. Do you share that view, and what do we need to do 
in order to be able to catch up to both of them if we are 
behind?
    Mr. Trachtenberg. I do, Senator. Certainly in the case of 
Russia, which is the focus of our discussion today, the 
Russians have for years been engaged in a very extensive 
strategic modernization program not only of their strategic 
nuclear forces and systems but of their non-strategic nuclear 
weapons and systems as well that has, I would argue, far 
outpaced what the United States has done to date.
    I agree with the earlier comments that were made in terms 
of the importance of the U.S. modernization program. Over the 
years, we have reduced the levels of our nuclear stockpile by 
some 85 percent since the height of the Cold War, but we do 
need to pursue the modernization program that has been referred 
to earlier. The United States has not built a new nuclear 
weapon in many, many years. Russia we know has. China has. 
Other nuclear weapon states have. So I do see a discrepancy 
there, and I would completely agree with the conclusions 
reached in the Nuclear Posture Review.
    Senator Shaheen. So one of the things that Senator Corker 
pointed out was that part of the agreement around New START was 
the modernization piece, but the idea was that we would 
continue to modernize. And I think there is some funding in the 
current appropriations and authorization in the NDAA bill that 
were passed that would allow us to look at some other 
modernization capabilities. But they were also supposed to go 
hand in hand with continued efforts to reduce the number of 
nuclear weapons.
    Can you talk about what has been done in the last 20 months 
of this administration that would point to efforts to further 
reduce nuclear weapons?
    Mr. Trachtenberg. Well, I can tell you, Senator, that we 
have reduced to the point where we are in compliance with all 
of our arms control obligations, in particular the New START 
totals which have put, of course, limitations on three systems, 
the number of deployed strategic weapons, the number of 
deployed strategic nuclear delivery vehicles, the ICBMs, 
bombers, and submarines, as well as the total number of 
deployed and non-deployed systems. So we have taken those 
obligations seriously.
    Senator Shaheen. And so can you talk about how much of that 
has been done since the current administration took office?
    Mr. Trachtenberg. I do not have the figures in front of me. 
I would be happy to take that for the record and get back to 
you.
    Senator Shaheen. That would be great. Thank you. If you 
would share it with the entire committee, that would be 
helpful.

    [Information not available at the time of print]

    Senator Shaheen. Last week, it was reported that the United 
States refused to certify the new Russian Tu-214 aircraft for 
flights under the treaty on Open Skies. We were the only one of 
23 nations to vote no. I think this is probably for you, Ms. 
Thompson. Can you talk about why we took that position?
    Ms. Thompson. Yes, Senator. We had technical experts along 
with over 20 other countries on the certification for the 
Russian sensor. We did not fail to certify. We came back and 
had to consult with some additional technical experts, and I 
would anticipate we will have a decision on that within the 
next 24 hours. We have not certified. We will have a decision 
in the next 24 hours.
    Senator Shaheen. I am out of time, but if we think we 
should not certify this aircraft, will we not also argue with 
some of our allies and those other 23 nations that they also 
should not certify it?
    Ms. Thompson. Yes, ma'am. There is a set process on those 
deliberations, but again, within the next 24 hours, you will 
have an answer for the certification.
    Senator Shaheen. Thank you.
    The Chairman. Thank you.
    Senator Risch.
    Senator Risch. Well, thank you, Mr. Chairman.
    First of all, thank you, both of you, for what you do. I 
think it has been said several times here today that what you 
do is some of the most important work that our country does as 
far as our national security and keeping us safe.
    Having said that, trying to negotiate with people who are 
not negotiating in good faith is a problem. And so you both 
have a heavy lift ahead of you. I was one of the ones--indeed, 
I led the effort--to not ratify the New START not because I do 
not believe we should deal with the Russians. I think we have 
to deal with the Russians. I just, as I think a lot of us 
today, do not have any confidence whatsoever that they are 
dealing in good faith. They are serial cheaters. They are 
serial liars. And you have to look at the other things that 
they are doing in the world to judge what kind of a mind these 
people have as far as whether they are acting in good faith.
    So having said that, the reason I opposed the original New 
START was simply because I believed that it did not give us the 
inspections, the confidence that we needed to get to where we 
wanted to be. I thought there was more we could do. Obviously, 
we cannot talk about it here, there are covert things that we 
can do to verify in addition to the things that are included in 
the treaty, and they do the same thing.
    But having said that, as we look forward to renegotiating 
the treaty when it expires, are there preparations being made 
as to how we could ratchet up our game as far as being able to 
verify the things that we suspect and probably know in some 
instances that they are doing that we cannot even tell them 
that we know because it would disclose methods and sources? Is 
there a thought process going into this as to how we are going 
to up our game, Ms. Thompson?
    Ms. Thompson. Yes, Senator. There is a rigorous interagency 
process ongoing. All options are on the table as we bring in 
technical expertise on what we know, what we do not know, how 
we can fill those gaps, again diplomatically from our end, 
militarily from the Defense Department, economically from our 
agencies as well. What are things that have not been tried 
before? What are some options? And that process is ongoing.
    Senator Risch. Mr. Trachtenberg, do you have anything to 
add to that?
    Mr. Trachtenberg. Well, I would agree with that, Senator. I 
would also agree with your earlier comments as well in terms of 
the New START treaty.
    I would make this point. Of course, when the New START 
treaty was negotiated in 2010, at the time we had hoped that it 
would sort of represent a new relationship with the Russian 
Federation and would lead to broader cooperation on a number of 
fronts.
    Since that time, what we have seen is a clear deterioration 
of our relationship with Russia. Though we would like the 
situation to be different, in fact, I believe to use Ranking 
Member Menendez's words earlier, we must be clear-eyed about 
the threats that we face. This administration is trying to be 
just that in looking at arms control in the context of our 
overall relationship with Russia.
    Senator Risch. Well, thank you. I am glad to hear that that 
is the view.
    You are absolutely right about the deterioration, and that 
deterioration should make us think about how we are going to 
approach this as we go forward in trying to renegotiate.
    In addition to the other things that they have done, the 
poisonings and everything else that they have done, watching 
them manufacture excuses as to why they are not complying, 
manufacture accusations against us that we are not complying on 
certain things really cries out to have us up our game in how 
we are going to approach this on a New START treaty.
    So, again, thank you for your work, and I hope we will 
approach it differently this time than we did last time.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman, and thank you both 
for being here.
    Secretary Trachtenberg, part of the support for ratifying 
the New START--I want to focus a little on that that others 
have talked about--was that it allowed certain weapons to be 
updated while also achieving overall reduction in the number of 
arms both the United States and Russia possess. The national 
labs located in my home state of New Mexico play a vital role 
in fulfilling these updates or life extension programs. 
President Trump has said he wants to strengthen and expand the 
U.S. nuclear arsenal.
    Now, while certain life extension programs are allowed 
under New START, building new weapons and not drawing down the 
overall number of weapons in our arsenal would go against the 
treaty.
    Can you clarify the President's position on what he means 
by strengthen and expand?
    Mr. Trachtenberg. Well, Senator, I believe the best 
articulation of our policy with respect to our nuclear arsenal 
going forward can be found in the Nuclear Posture Review that 
was released in January. And I think what we are talking about, 
as I mentioned previously, was----
    Senator Udall. Could you focus on the strengthen and 
expand? If it was in the Nuclear Posture Review, tell me what 
we mean.
    Mr. Trachtenberg. What the Nuclear Posture Review said 
specifically was that what we are looking to do is to have a 
modern, resilient, and capable nuclear force that is capable of 
effectively deterring attack or aggression against the United 
States or our interests. I want to be very clear about this. 
What we are looking at in connection with our nuclear forces is 
to preserve the efficacy of our deterrence capability. This is 
all about deterrence, and the Nuclear Posture Review I believe 
makes that clear. And so all of our efforts related to 
modernization of our capabilities, while we, in fact, proceed 
with the necessary reductions of older systems, are done with a 
view toward maintaining the efficacy of our overall nuclear 
deterrent. That is job number one.
    Senator Udall. Now, we talked earlier about the meeting in 
Helsinki between President Trump and Russian President Putin. 
What specific arms control issues were discussed there?
    Ms. Thompson. Senator, I know that the topic writ large was 
raised. My belief is, as I have been briefed, the specifics 
were not addressed. It was in general terms of the importance 
of two nuclear capable countries that we need to remain open to 
dialogue between our respective teams to ensure that the 
obligations are met.
    Senator Udall. Now, in August, a Russian document listing 
arms control topics for discussion at the July summit between 
President Trump and President Putin was leaked to the press. 
According to the document, Putin spoke with President Trump 
about extending New START for 5 years and about reaffirming 
commitment to the INF Treaty.
    Can you confirm whether or not Putin raised these topics 
with President Trump?
    Ms. Thompson. I cannot, Senator.
    Senator Udall. Can you?
    Mr. Trachtenberg. No, Senator, I cannot.
    Senator Udall. When you talked about--the knowledge you had 
was from the briefing that the ambassador had. You were not 
given any instructions with regard to those.
    Ms. Thompson. Correct, Senator.
    Senator Udall. Were there any tasks that came out from the 
meeting with the ambassador to say these are the things we have 
to do flowing out of the summit?
    Ms. Thompson. I did not receive any specific taskings. No, 
sir.
    Senator Udall. What is the status of DOD's research and 
development on conventional ground-launched intermediate range 
missile systems?
    Mr. Trachtenberg. Senator, we are continuing to work on the 
research and development based on the congressional guidance 
that we received, which we very much appreciate. I believe 
there has been about $48 million that has been set aside for 
research and development of the conventional ground-launched 
cruise missile. The research and development portion of that is 
entirely compliant with the INF Treaty. If we were to go 
forward and actually deploy such a system, then that would be 
non-compliant with the INF Treaty. But no decision, of course, 
has been made at this time.
    Senator Udall. How much money has DOD spent on this effort 
to date?
    Mr. Trachtenberg. I would have to get you the exact 
figures.
    Senator Udall. Could you do that for the record, please?
    Mr. Trachtenberg. Absolutely.

    [Information not available at the time of print]

    Senator Udall. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you very much.
    Senator Rubio.
    Senator Rubio. Thank you. Thank you both for being here.
    In that March speech, Vladimir Putin unveiled these new 
weapons. He referred to them over a dozen times as strategic, 
at least in the Kremlin's English translation. And these new 
kinds of nuclear arms include hypersonic nuclear cruise 
missiles, nuclear-powered ballistic missiles, nuclear torpedoes 
shot from drone submarines.
    Under Secretary Thompson, I am glad that you acknowledged 
in your prepared testimony that the U.S. has to reckon with--
and I quote--I think this is right out of your statement--
whether or not Russia's recently announced strategic nuclear 
weapons will be held accountable under--end quote--the New 
START treaty.
    So let me ask just to clarify. Is it the position of the 
United States that we consider the weapons that were previewed 
in the speech that are under development that he announced in 
March, the hypersonic nuclear cruise missiles, the nuclear-
powered ballistic missiles, the 100 megaton nuclear torpedo 
shot from drone submarines, and the like--do we consider those 
to be strategic nuclear weapons covered under the START treaty?
    Ms. Thompson. Senator, I would defer to my technical 
experts for the firm answer on that. My initial read is they 
would count as strategic weapons.
    Senator Rubio. Can I ask, have the Russians notified any of 
these new kinds of strategic nuclear arms featured in that 
speech to the Bilateral Consultative Commission?
    Ms. Thompson. They have not been raised through the formal 
process. No, sir.
    Senator Rubio. Have we asked them to do so?
    Ms. Thompson. Not to my knowledge, but I can check again on 
what occurred. So I read the results from the INF technical 
experts meeting. That was not raised, and we have not had 
discussions on specifics of New START.
    Senator Rubio. So as far as you know, no one yet has raised 
with the Russians from our side we saw your speech, we saw what 
you are talking about developing, we believe that needs to be 
notified.
    Ms. Thompson. Those were not notified. The only way we have 
seen those is in the open press that you----
    Senator Rubio. No. I know they have not been notified. Has 
anyone from our government asked them, expressed to them our 
belief that it is their obligation to notify based on what we 
saw them describe?
    Ms. Thompson. I have not done so, Senator.
    Senator Rubio. Why not?
    Ms. Thompson. We have not had the engagement on New START 
with my counterpart. But I will take that back and----
    Senator Rubio. Your counterpart on the Russian side.
    Ms. Thompson. Correct.
    Senator Rubio. But beyond that, there are other ways beyond 
that. You are saying there has been no engagement at all 
whatsoever. There are not other channels by which this could be 
raised even through a public statement of some sort?
    Ms. Thompson. We have had engagement, Senator, but because 
it was in an unofficial press report and not through official 
channels, we still have some intelligence to gather on that to 
confirm/deny. As we have seen before----
    Senator Rubio. Well, it was Putin's speech. That is pretty 
official.
    Ms. Thompson. Senator, as we have seen before from the 
rhetoric from President Putin, what he says is not necessarily 
ground truth.
    Senator Rubio. Yes. I am not saying whether or not some of 
this was built on hyperbole or not. My point is he gave a 
speech, he described these weapons. You would think that 
someone in the United States Government would say to them, hey, 
we saw the speech by your Putin guy, and if that is true, you 
need to notify that. That would violate START.
    Ms. Thompson. Senator, we are taking action on it. We have 
not done it through the formal New START process with our 
counterparts.
    Senator Rubio. Well, it does not sound like any action has 
been taken yet in regards to that.
    Ms. Thompson. We have taken action, Senator, within our own 
community not through the formal process.
    Senator Rubio. You mean you have talked to each other about 
it.
    Ms. Thompson. Senator, as a former intelligence officer of 
28 years, we have a practice of information is not necessarily 
intelligence until it is confirmed. So we are working with our 
agencies and partners and allies to confirm if that 
information----
    Senator Rubio. I am not saying we should tell them, hey, we 
know you have something. All I am saying is he gave a speech. 
He described a series of weapons that, if they were developed 
at any point in the future, would fall under the START treaty 
as a strategic weapon. And you would think someone would say, 
hey, we saw your speech. We are not saying we think it is real 
or not real, but if that is real, you understand that needs to 
be notified. And you are saying we have not yet done that.
    Ms. Thompson. I am saying that we have looked at it 
internally. I have not met with my counterpart on that 
discussion, but I will take that back for consideration.
    Senator Rubio. All right.
    Let me ask about INF real quick. The treaty puts limits on 
us in other theaters outside of Europe and with other 
competitors in particular, especially China, that are not 
covered by it. So I do not know who this question is 
appropriately to, but does the INF Treaty, as currently 
structured, begin to put us at a strategic disadvantage with 
respect to China, particularly the Indo-Pacific region?
    Mr. Trachtenberg. Senator, you raise a good point, and I 
think that is indeed one of the questions that we are looking 
at in terms of the overall implications of remaining in 
compliance with the treaty which the Russians are in clear 
violation of.
    Senator Rubio. I guess my last question is as far as 
violating the INF Treaty, it should not be surprising. It is 
our official position that they are in violation of the INF 
Treaty. That is correct. Okay.
    And it should not be surprising--has it not been widely 
reported now that the Russians have openly both displayed in 
exercises and through statements made by military officials a 
doctrine of escalate to deescalate, including the use in their 
doctrine of tactical nuclear weapons in the battlefield in 
essence in order to elevate or in order to exacerbate a crisis 
in order to escalate it in order to then deescalate it. A 
nuclear strike on the battlefield--everybody would stop and it 
would allow them--so the violation of the INF Treaty and the 
use of intermediate weapons would be fully consistent with that 
new doctrine. Would it not?
    Mr. Trachtenberg. I would believe it would be, Senator. 
Absolutely correct. That is why I believe it is important that 
we consider why the Russians are violating the INF Treaty in 
the way they are because they must see some advantage to doing 
it either militarily, politically, or otherwise.
    The Chairman. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you both for being here today.
    Following National Security Advisor John Bolton's meeting 
with his Russian counterpart in Geneva at the end of August, he 
stated that the administration was the very early stages of a 
review regarding the pros and cons of extending the treaty. And 
then he further commented that there were several options 
available. One was, of course, extending the treaty. Another 
was renegotiating it. But a third was jettisoning it and 
pursuing a different kind of approach, and he made a specific 
reference to the 2002 Moscow Treaty.
    Of course, the Moscow Treaty only limits deployed warheads 
and it does not include verification provisions. And so to some 
of us there is a concern about the specific reference to the 
Moscow Treaty given that it does not have verification.
    So why did the administration suggest that the Moscow 
Treaty may be an option for the path forward on renewing New 
START?
    Ms. Thompson. Senator, I can assure you as the Under 
Secretary--and one of my bureaus is the Arms Control 
Verification and Compliance Bureau--that whatever treaty that 
we engage in with our counterparts has the verification within 
it. That is an important part of the treaty.
    I would never want to speak for Ambassador Bolton, but I 
can assure you for my team that verification is integrated into 
the treaties.
    Mr. Trachtenberg. Senator, if I might just agree with those 
comments and also share your view on the importance of 
verification. I would say I was working in the Defense 
Department at the time of the Moscow Treaty, and the reason why 
that treaty did not contain verification measures like most 
arms control treaties is because we were still operating under 
the verification provisions in the original START treaty, which 
did not expire until the end of 2009. So they were still fully 
in effect.
    Senator Murphy. Thank you both for those answers.
    I will stay with you, Secretary Trachtenberg. I wanted to 
come back to the issue of Open Skies. And I appreciate Senator 
Shaheen's questions.
    Separate and aside from this pending issue of this one 
certification issue, Secretary Mattis wrote a letter to Senator 
Fischer here indicating that Open Skies--compliance with it is 
still in U.S. national security interests.
    Do you agree with the statement despite the fact that we 
have these ongoing Russian compliance issues? Even with the 
Russian compliance issues, is this treaty still within national 
security interests for the United States to remain an active 
part of?
    Mr. Trachtenberg. I think the Open Skies Treaty clearly has 
been in the United States' interest and certainly because of 
the transparency, it provides the openness, the level of 
visibility of what other states are doing that it provides not 
only to us but to our allies as well. We would much prefer to 
see the Russians get back into compliance with its provisions.
    Senator Murphy. I asked the question because this 
administration has been in the business of pulling out of 
several important multilateral security agreements, and I think 
it is important to understand that even given these Russian 
compliance problems, we can work through them. We hope to be 
able to work through them within the construct of the existing 
treaty.
    Mr. Trachtenberg. I would agree that we would hope to be 
able to work with Russia to work through these compliance 
issues that we have. What I do find disturbing and troubling, 
Senator, is the fact that, as I mentioned, there does seem to 
be a sort of a pattern of behavior here on the part of the 
Russian Federation that does not bode well, I think, in terms 
of our desire to take arms control to the next level, so to 
speak. And until Russian behavior changes or at least even if 
it does not, we need to factor that into our overall 
consideration of all of these treaties as we look at them to 
determine what the United States should do going forward.
    Senator Murphy. Thank you.
    Finally, switching topics, again back to you, Secretary 
Thompson. The Trump administration began talks earlier this 
year on a civilian nuclear cooperation agreement with Saudi 
Arabia. Given that you are before the committee, I wondered if 
you would give us an update on the progress with these 
negotiations, including the last time that the two sides met, 
and a confirmation that the administration continues to seek an 
agreement that contains the gold standard. This committee 
passed a resolution just a few weeks ago once again expressing 
our interests that that standard be met to the extent that we 
eventually reach an agreement with the Saudis.
    Ms. Thompson. Yes. Thank you, Senator.
    I can confirm that there are ongoing negotiations between 
the United States and Saudi Arabia on the civil nuclear 
agreement, the 123. I cannot address the specifics of the 
negotiations since those are ongoing, but what I can assure you 
as Under Secretary again that oversees that portfolio, that I 
always seek the strongest standard in those agreements.
    Senator Murphy. Secretary Pompeo said before this committee 
that we have told Saudi Arabia we want a gold standard section 
123 agreement from them. So can you just confirm that that 
remains the bottom line for the administration?
    Ms. Thompson. Yes, sir. The strongest standard possible.
    Senator Murphy. We have a sense of what a gold standard is 
here, and we passed a resolution making sure that there are no 
enrichment or reprocessing abilities for the Saudis. Is the 
gold standard still the bottom line?
    Ms. Thompson. Yes, sir. Committed to ensure that the 
enrichment reprocessing and those technologies do not get 
proliferated.
    Senator Murphy. Thank you.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you.
    Before turning to Senator Barrasso, I am going to take one 
more of my minutes.
    In this conversation with Senator Murphy, you were talking 
about taking things to the next level in what all was happening 
in the relationship. And I might not have heard you clearly, 
but if the START treaty is being complied with and it is 
yielding the benefits to us of not having to have so many 
nuclear armaments, not knowing whether they work or not, but 
focusing on the ones we have and making sure that they do so 
that they are reliable, if it is working for us, we would not 
consider undoing the START treaty because other treaties are 
not being adhered to. Would we?
    Mr. Trachtenberg. Senator, I think wherever something is of 
benefit to U.S. interests, then the U.S. should continue to 
adhere to it or seek to move forward in that respect.
    The point that I was trying to make was that when looking 
at the individual treaties, there does appear to be a pattern 
of Russian behavior overall in terms of its arms control 
compliance and Russia's willingness to abide by agreements that 
have already been signed that I think speaks to sort of how the 
Russians view their approach to arms control in general. And 
all I meant to argue was that in our consideration of what is 
or is not in our interest, we should try to at least take into 
account how the Russians are viewing arms control and how they 
are looking at our responses to their violations in terms of 
determining the overall future for arms control going forward.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    For both of you, listening to Secretary Trachtenberg, you 
talked about Russian behavior. And my concern as a member of 
this committee and as an American citizen is more can they or 
can they not rather than will they or will they not. And so I 
like to make sure they have the capacity to do something, 
whatever their intentions are.
    Which brings us to the question that Senator Rubio had 
talked about when he talked about this new strategic nuclear 
weapon that is reported. I read about it in March. Vladimir 
Putin said that the weapons include a nuclear-powered cruise 
missile, a nuclear-powered underwater drone that could be armed 
with a nuclear warhead, a hypersonic missile. The headline in 
one of the papers said high-tech weaponry. Russia's new nuclear 
weapons are technically plausible. You know, this is something 
that they could potentially have. I mean, Putin did his 
boasting and whether it was just an idle boast or real, I am 
concerned. What is our government's assessment of the level of 
maturity and accuracy of these weapons? For either of you.
    Mr. Trachtenberg. Senator, I cannot speak specifically to 
the individual systems that President Putin announced. There 
are probably some of those that may be more mature than others.
    I do think it is a worrisome development that he announced 
these so publicly and made such a presentation of this, which 
has led us to wonder why the Russians believe that they need to 
do this given the fact that they have already extensively 
modernized their strategic nuclear arsenal. So I would look at 
this in the context of to some degree it may be aspirational. 
To some degree, there may be a practical element to some of 
these systems. But I do find it troubling not only from the 
standpoint of arms control specifically but from the standpoint 
of our overall relationship with Russia, which I think we would 
all like to see improve.
    Senator Barrasso. And then again along the same line of can 
they or can they not, then the question is can we or can we not 
defend against such things. So the question is, do we have a 
current or prospective missile defense system to intercept the 
possibility of these weapons?
    Mr. Trachtenberg. We do not have a missile defense system 
capable of defending against the Russian strategic nuclear 
arsenal, nor has it been our policy to do that. The Russians 
have a tremendous number of nuclear weapons systems, and for a 
variety of reasons, we have not pursued an active defense 
against the full range of Russian strategic weapons. We prefer 
to rely on our deterrence capability when it comes to Russia.
    Senator Barrasso. So at this point, we do not really have 
any specific actions that we are taking in response to what 
they are doing as opposed to a deterrence--the other deterrent 
capacity.
    Mr. Trachtenberg. Well, we do believe that proceeding with 
the nuclear modernization program that we have, by modernizing 
all three legs of our nuclear triad, the land-based, sea-based, 
and air breathing components, is critical in order to continue 
the deterrent effect that we rely on.
    Senator Barrasso. Secretary Thompson, you know, as the 
country continues to face threats from around the world, not 
just Russia, I think we should not take any action that is 
going to hinder our own missile defense systems. We need to 
always remain in charge, I think, of our missile defense, not 
Russia or any other country telling us where we can put up and 
what we can put up in terms of defense.
    So I have concerns about the efforts of Russia to limit our 
missile defense and actions that a previous administration took 
on this issue.
    Can you commit to me that in any arms control discussions 
with Russia for which you are responsible, that the United 
States will not agree to limiting our own missile defense 
programs?
    Ms. Thompson. Yes, Senator. And I can assure you that I 
will stand up for what is in the best interest of the United 
States people and our partners and allies when appropriate.
    Senator Barrasso. Thank you.
    Anything, Secretary Trachtenberg, you would like to add to 
this from the standpoint of the Department of Defense?
    Mr. Trachtenberg. No. I would agree with that statement, 
Senator. I was also present at the Department of Defense when 
President Bush made the decision to withdraw from the--or to 
exercise the withdrawal clause of the ABM Treaty because the 
world had changed. We faced a variety of ballistic missile 
threats and felt the need to move forward with at least an 
initial deployment of missile defenses. So I very much believe 
that missile defenses can not only defend but can be useful 
from the deterrence perspective as well in devaluing the 
currency that others place on ballistic missiles as a threat.
    Senator Barrasso. Thank you, Mr. Chairman.
    The Chairman. Thank you. Thank you very much.
    Senator Coons.
    Senator Coons. Thank you, Chairman Corker, Ranking Member 
Menendez.
    Thank you to both our witnesses for your long service to 
our country and for the chance to explore these important 
issues with you.
    Something we have not talked much about in today's hearing 
is chemical weapons. So let me move to that if I can.
    The Trump administration's recent National Security 
Strategy claims we are in an era of renewed great power 
competition, in particular with Russia. And I am wondering 
whether this is an area in which you expect that to reemerge.
    The State Department has long claimed that Russia has not 
yet declared all its chemical weapons and production facilities 
to the OPCW, Organisation for the Prohibition of Chemical 
Weapons, and Russia continues, I think, a despicable practice 
of supporting or defending the murderous regime of Bashar al 
Assad and their repeated use of chemical weapons.
    Does the administration believe unilateral measures are the 
best way to counter Russian chemical weapons production and 
use, or should we, instead, work through international 
institutions like the OPCW? That is for you, Ms. Thompson.
    Ms. Thompson. Thank you, Senator.
    I think both are appropriate. We have worked hand in glove 
with the OPCW and our partners and allies of late. Assistant 
Secretary Poblete was in a conference stating our views, and we 
had a rigorous engagement with partners and allies to ensure it 
is not only a U.S. voice but a voice of the global partnership. 
And we have been very consistent on that and look forward to 
continued emphasis both bilaterally and through the 
multilateral engagements primarily with OPCW when it comes to 
chem. And you can reference in my statement where we stand with 
the Russians' actions in Syria with the Assad regime.
    Thank you, Senator.
    Senator Coons. And do you assess that Russia may seek to 
reconstitute a large scale chemical weapon production 
capability, or do you think its goal is the smaller scale 
program that allows it to carry out attacks like the one that 
recently happened in the United Kingdom? I would be interested 
in both of your opinions on that.
    Ms. Thompson. I would anticipate they will continue to 
build on their existing program and, as we saw from the 
Novichok attacks, continue to expand for new emerging 
technologies in that as well.
    Senator Coons. Would you agree that there is a distinction 
between a large scale production in terms of capability to 
improve and deploy chemical weapons as opposed to the ability 
to carry out small scale attacks?
    Ms. Thompson. I would agree with that assessment.
    Mr. Trachtenberg. I would agree with that as well, Senator. 
I would also think that anything that the Russians do in the 
area of chemical weapons they will do with a clear intent to 
try to hide what they are doing from detection. And I think the 
results of the attack in Salisbury earlier this year was an 
absolutely atrocious demonstration, regardless of whether they 
have large or small arsenals. The willingness to actually 
employ such weapons or to support regimes that employ such 
weapons is really an atrocity.
    Senator Coons. So I will just echo what Senator Isakson 
said earlier about the importance of having robust verification 
regimes and the ways in which his support for the New START 
treaty ultimately was won over because of the breadth and 
sophistication of the verification regimes involved. Or I will 
simply speak for myself and say that also was a key part in my 
supporting New START.
    I want to revisit a question Senator Murphy asked earlier 
about comments made by the National Security Advisor, John 
Bolton, back in August after meeting with his Russian 
counterpart where he was suggesting in the early stages of the 
review that one option in consideration of New START was 
pursuing a different type of approach such as the 2002 Moscow 
Treaty, which only limits deployed warheads and does not, I 
think, verification. You gave an answer about there being a 
continuing verification regime that made that not necessary.
    Let me just ask directly. Is the administration considering 
in this interagency process a new arms control agreement that 
does not include verification provisions?
    Ms. Thompson. No, sir.
    Mr. Trachtenberg. Not to my knowledge, Senator.
    Senator Coons. And would you support or recommend arms 
control agreements or reductions that did not include 
verification procedures at least as robust as New START?
    Ms. Thompson. I would not. I would want to ensure that 
verification measures are integrated into any treaty that we 
seek.
    Senator Coons. It is my view, given public statements by 
Putin and others, that Russia is seeking strategic weapons that 
would allow them to restart a great power competition with us, 
and it is just my hope that you will consider Congress a 
partner and seek our input and assistance as we try to craft a 
way to both push Russia back into compliance with the INF 
Treaty and consider how, when, and whether to extend the New 
START treaty, something that I think is of great concern to all 
of us.
    Thank you both for your testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Booker.
    Senator Booker. Thank you very much, Mr. Chairman.
    I know that some of this ground was already covered with 
Senator Shaheen, but I would just like to go through it a 
little bit again.
    There is obviously a dispute over the compliance with the 
Russians on the INF Treaty. A collapse of the INF Treaty would 
open the doors, I would assume, towards further development of 
arms in terms of the intermediate range missiles and the 
negative repercussions.
    Can you just help me maybe briefly restate the benefits of 
the INF Treaty, not just to the United States but also to our 
NATO allies?
    Mr. Trachtenberg. Senator Booker, I think the INF Treaty, 
when it was negotiated, was a major arms control accomplishment 
in that it completely eliminated an entire class of nuclear 
systems, systems that threatened our NATO Europe allies 
specifically. So there was, indeed, great value to the treaty 
at the time.
    I would also note that the Russians were initially 
reluctant, if I recall, to engage in any negotiations along 
those lines until the United States had demonstrated a 
willingness to at least counter what they were doing with the 
deployment of their SS-20s in Europe. Now, we had no plans to 
deploy missiles in Europe, INF missiles in Europe.
    The reason I raise that point, however, is to make it clear 
that Russian behavior occasionally is determined by how they 
view the United States reacting to their behavior.
    Senator Booker. And so they are in violation clearly right 
now. In terms of our allies, what would it mean if we declared 
them in material breach and pulled out? What would the 
implications be?
    Ms. Thompson. Senator, the implications of material 
breach--those have been laid out in the treaty. There are 
various options with the treaty, and those discussions would be 
in collaboration with our technical experts here and partners 
and allies. We are not there yet.
    Senator Booker. No. And there is obviously an importance in 
continuing that dialogue. This is just land-based. Obviously, 
we have the other two prongs of the nuclear triad at our 
disposal, air and submarine launch. Correct?
    So then the bombasity, at least my description, not yours 
obviously, of some of the statements on behalf of the 
administration seem to me make me worry about the willingness 
to go forward and continue sort of strategic stability talks.
    Can you give me any understanding of what the 
administration intends to do to continue what is important 
dialogue to both us and our allies?
    Ms. Thompson. Yes, Senator. I am committed to that. The 
dialogue is incredibly important. And that was an example. With 
the President and President Putin in Helsinki was one example 
of dialogue. Again with Ambassador Bolton and his counterpart, 
as I alluded to earlier, with Secretary Pompeo and Foreign 
Minister Lavrov have had discussions. I have had discussions. 
So as we have seen, despite their rhetoric, despite their 
breach of their obligations, we continue to keep that door open 
and remain committed to fulfill our end of the obligation.
    Senator Booker. But is there going to be some kind of 
formal follow-up to Helsinki? Are we going to have some efforts 
to really have more formal discussions coming up?
    Ms. Thompson. We have had formal discussions. There are 
interagency dialogues on next steps. But it does not get much 
press, but for example, when we had the INF technical experts 
meetings, we engage in the chemical weapons piece and the OPCW, 
among others. So it does not get as much press, but there are 
lines of dialogue both from the Defense Department, State 
Department. DOE Secretary Perry was in country, I believe it 
was yesterday or the day before. So we continue to have those 
discussions.
    Senator Booker. Is there disagreement in the White House, 
within the administration, about whether they will resume talks 
on a specific date and time?
    Ms. Thompson. Not to my knowledge, Senator, no.
    Senator Booker. And lastly, what would the goals be for 
those continued conversations?
    Ms. Thompson. It depends on the treaty, quite candidly. 
With INF, obviously, we have raised it that they are not in 
compliance, and we showed them example upon example of that. 
But as the President addressed in July the fact that we both 
are nuclear-capable countries, we have an obligation to our 
people and to our partners to maintain that open line of 
dialogue.
    Senator Booker. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Merkley.
    Senator Merkley. Thank you very much, both, for continuing 
to keep us briefed on developments in these very important 
nuclear conversations.
    Under New START, does the United States have access only to 
declared facilities or to also undeclared facilities that we 
suspect?
    Ms. Thompson. To my knowledge, it is both, Senator, but 
candidly, I will have to take that back to my experts and 
confirm.
    Senator Merkley. I do believe it is only declared 
facilities.
    Under the JCPOA, the IAEA has the power to request access 
to suspect facilities and mandates, I believe, a 24-hour 
response period. Is that correct?
    Ms. Thompson. Yes.
    Mr. Trachtenberg. I believe we could request it.
    Ms. Thompson. Request access. We do not necessarily get the 
access.
    Senator Merkley. As of this time, we have heard report 
after report that Iran is in compliance. Is that you all's 
understanding from all of your examination of the issues?
    Ms. Thompson. They are in compliance as the IAEA report, 
not in compliance with all the additional malign activities, 
but I am sure we will address that later, Senator.
    Senator Merkley. But those are not JCPOA activities that 
you are talking about. They are in compliance with the JCPOA in 
your opinion?
    Ms. Thompson. In the IAEA's opinion, they are in technical 
compliance, yes.
    Senator Merkley. But in your opinion.
    Ms. Thompson. The technical portion, Senator--they are in 
compliance.
    Senator Merkley. They are in compliance. Okay. Thank you.
    We have the challenge between a vision and the details of 
an arms control agreement. This is the New START agreement, a 
pretty hefty package. I could spend a career probably studying 
it. And this is the JCPOA, which is also a pretty hefty 
package. And this is the press release regarding the U.S. and 
North Korea for denuclearization, and that is all we have. Am I 
wrong? Is there any package like this, any set of detailed 
plans yet between the U.S. and North Korea regarding North 
Korea's program?
    Ms. Thompson. I could bring in a stack of the intelligence, 
but I do not think that would be appropriate for this hearing, 
Senator.
    Senator Merkley. Well, these are public agreements. These 
are treaties. There is no such treaty worked out. Am I correct 
that there is no detailed inventory of North Korean assets that 
have been examined and developed with agreement on both sides?
    Ms. Thompson. That is correct, Senator.
    Senator Merkley. Am I correct that there is no schedule for 
eliminating these nuclear assets that has been agreed to by 
both sides?
    Ms. Thompson. Not yet.
    Senator Merkley. Am I correct that there is no verification 
regime that has been developed and agreed to by both sides?
    Ms. Thompson. It has been drafted from our side, not an 
agreement yet, Senator.
    Senator Merkley. Well, it is hard to have a complete 
verification regime if you have not worked out what you are 
actually eliminating.
    Ms. Thompson. That is correct, Senator.
    Senator Merkley. This particular statement says the United 
States and DPRK, meaning North Korea, commit to work toward the 
complete denuclearization of the Korean Peninsula. Now, that 
working, ``to work toward,'' is a far cry from the standard 
that Secretary Pompeo set out for, which was--I believe he used 
the words ``complete, irreversible elimination of nuclear 
weapons.'' Why would North Korea not agree to language? Or did 
we insist and try to push language that would be a commitment 
to complete, irreversible elimination rather than simply to 
work toward denuclearization?
    Ms. Thompson. Senator, the administration stands firm that 
the final and fully verified denuclearization, and those 
discussions are ongoing.
    Senator Merkley. So at the time of this statement, North 
Korea was unwilling to reach the language we wanted, the 
complete, irreversible elimination.
    Ms. Thompson. They have committed to denuclearize the 
peninsula.
    Senator Merkley. Well, I am just reading from the document. 
It says they have committed to work toward. That is quite 
different. It reminds me actually of the NPT language, the Non-
Proliferation Treaty language, where the large nuclear states 
pledged to--and they used very similar language--undertake to 
pursue negotiations on complete disarmament. In other words, it 
is those inserted words that say, no, we do not really have a 
commitment yet. North Korea is just saying it will work toward 
that effort.
    I stress this because quite a bit of time has passed, and 
we do not even have the first leg of the journey. The first 
base is getting to a complete inventory of their program. And 
North Korea has not even agreed to that. And there was not 
actually any language in this one-page document that committed 
them to it. So it is of real concern.
    The other thing is that one thing we said in this document, 
which was a little unusual, is we specifically called out that 
we were committed to hold follow-up negotiations led by the 
U.S. Secretary of State Pompeo and a relevant high-level North 
Korean official to implement the outcomes. But the outcome is 
only to work towards something because there is no verification 
regime to implement. There is no inventory of their nuclear 
program, and there is no schedule or plan for how that will be 
eliminated. So what is there exactly to implement?
    Ms. Thompson. Senator, when we talk final and fully 
verified, I would say that is the last step of--I know you are 
aware based on your arms control background that once we get 
the agreement, we get the access to the country. And then there 
is a series of steps. We have done this in multiple areas. We 
have got the technical expertise within the ranks of the State 
Department, DOD, Department of Energy, and partners and allies. 
So I am confident, when Secretary Pompeo reaches the agreement 
with the President, that we have the steps that are necessary 
to final and fully verify----
    Senator Merkley. I was just trying to understand what there 
was to implement because this was not to implement what we may 
someday negotiate. It was to implement the outcome of the 
summit it says. And I am just a little puzzled by exactly what 
that meant.
    So given that it says that we were fully committed to 
having Secretary Pompeo do these follow-up negotiations, why 
was his second trip to hold those negotiations cancelled by the 
United States?
    Ms. Thompson. The North Koreans had not taken the 
appropriate action to justify a visit. That said, the 
discussions are ongoing with Secretary Pompeo, with our envoy, 
and through senior leadership.
    The Chairman. Thank you.
    Senator Merkley. Thank you.
    The Chairman. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman. Just a couple of 
follow-up questions, returning to the START treaty.
    Has the United States been able to verify Russia's meeting 
the limitations of the treaty?
    Ms. Thompson. We did. Both countries met the limits in 
February, Senator.
    Senator Menendez. And assuming that the United States 
continues to verify Russia is in compliance, can the United 
States meet all of our deterrence requirements for the next 5 
years if New START is extended?
    Ms. Thompson. I would defer to the Department of Defense.
    Mr. Trachtenberg. Senator, for the next 5 years, it is a 
bit speculative. I know we can meet those requirements today, 
but conditions occasionally change quite rapidly. So I would be 
reluctant to say whether we could or could not 5 years hence.
    Senator Menendez. Well, the question is, if Russia 
continues to meet its obligation and is in compliance, you 
cannot tell me whether we can meet our deterrence requirements 
under the New START treaty?
    Mr. Trachtenberg. Our deterrence requirements may be 
variable, Senator, and not only directly related to the Russian 
Federation. There are other countries out there with nuclear 
weapons. So again, that would be speculative on my part.
    Senator Menendez. Let me just say that the more I hear the 
answers to the questions, I do not understand if we can meet 
all of our current deterrence requirements with a force at or 
slightly below the levels of the New START treaty. If we are 
not forced to cut back any of our current nuclear modernization 
efforts, if we are not in any way limited in terms of our 
missile defenses, if this meets the standard put forward in the 
Nuclear Posture Review for arms control, if we have been able 
to verify Russia is meeting the limitations of the treaty, it 
seems to me that all of the foundational building blocks of 
aspiring to a follow-on on this treaty would be in place. But 
as I listened to your answers, I get a sense that maybe the 
administration is headed a different way.
    Mr. Trachtenberg. I am not intending to imply, Senator, 
that the administration takes a different view of that. You may 
be absolutely correct in what you say. All I am suggesting is 
that much can happen in 5 years.
    Senator Menendez. Let me turn to the chemical weapons 
question. Obviously, Salisbury--that attack directly 
contravenes the Chemical Weapons Convention which is a 
fundamental pillar of international attempts to limit the use 
of weapons of mass destruction. Now that you have imposed a 
first round of sanctions, has the Russian Federation taken 
steps to avoid additional sanctions required under the Chemical 
and Biological Act?
    Ms. Thompson. Not that we have seen as yet.
    Senator Menendez. So assuming that that goes unabated, then 
there should be more consequences. Is that a fair statement?
    Ms. Thompson. That is a fair statement, Senator.
    Senator Menendez. Now, let me finally turn to the INF 
Treaty. It appears that the Russians have consistently said 
that they value the INF Treaty and would like to preserve it. 
We will see. In addition, it appears that Russia and the United 
States have at least agreed on the missile, the 9M-729, which 
we have identified as violating the treaty. On the other hand, 
in March in congressional testimony, General Hyten, the 
Commander of the U.S. Strategic Command, testified Russia had 
increased the production and deployment of the 9M-729, 
compounding Russia's violations and further threatening 
European security.
    So let me ask you a few questions about the next steps and 
our attempts to bring Russia back into compliance.
    Has the United States asked Russia to halt production of 
the 9M-729 so that the military situation does not further 
deteriorate during our discussions?
    Ms. Thompson. We have had discussions with our Russian 
counterparts in the INF technical experts meeting on what is 
their obligations in the compliance and how they are violating 
the treaty.
    Senator Menendez. Have we specifically asked them to halt 
production of that missile?
    Ms. Thompson. We have told them to get back into compliance 
and showed them examples of what that looks like.
    Senator Menendez. Okay. Would halting production not begin 
the process of getting them back into compliance?
    Ms. Thompson. In discussions, Senator, I prefer not to talk 
about open dialogue of our negotiations in the open setting, 
but we can----
    Senator Menendez. Well, look, you know, hiding behind 
things that are not classified and calling them classified are 
beyond the pale.
    Let me ask you this. Has the United States asked Russia to 
provide an exhibition of the missile so U.S. experts can review 
its technical characteristics and determine whether it can fly 
more than 500 kilometers, which would violate the treaty?
    Ms. Thompson. I have not. I do not know if other agencies 
have, Senator.
    Senator Menendez. Do you know of any?
    Mr. Trachtenberg. Not to my knowledge, Senator.
    Senator Menendez. What steps does Russia need to take to 
bring itself back into compliance with the treaty?
    Ms. Thompson. Fulfill the obligations set forth in the INF 
Treaty.
    Senator Menendez. Which are what? You are the Under 
Secretary. Why do you not tell me what some of those are?
    Ms. Thompson. Well, for one, Senator, is they would have to 
get rid of the SSC-8. That blows the compliance. They have 
battalions of them. They would have to stop production, among 
other things, Senator.
    Senator Menendez. Let me just close on this.
    Secretary Thompson, you mentioned section 231 of CAATSA in 
your opening statement. The fiscal year 2019 National Defense 
Authorization signed into law on August 13th included a 
provision which requires the administration to submit a report 
on whether the President has made a determination that 
significant transactions have taken place with the Russian 
defense and intelligence sectors. That report is due on 
November 13th.
    Can we have your commitment that this report will be 
submitted to the committee on or before that date?
    Ms. Thompson. You have my commitment that that will be 
submitted. Yes, Senator.
    Senator Menendez. Thank you.
    The Chairman. I want to thank you both for being here and 
just ask a closing question.
    I know that Secretary Thompson referred to some of the 
rhetoric that has come out of the Russian leader's mouth. 
Sometimes that is information and not reality.
    And then, Secretary Trachtenberg, you have left yourself a 
lot of room as it relates to some of these treaties.
    Are there things out there right now that cause either one 
of you concerns about strategic stability?
    Mr. Trachtenberg. Senator, I am concerned about the overall 
state of the U.S.-Russia relationship. To the extent that 
affects stability, absolutely. And I am concerned not just from 
an arms control perspective, but my concern goes beyond the 
arms control realm looking into some of the other things that 
the Russian Federation is doing, some of its actions that sort 
of span a range of activities that I would find 
counterproductive to American interests across the board.
    The Chairman. So those are all things that we can visibly 
see and are aware of. Are there other things, though, that you 
are aware of that they are developing that cause you to feel 
concern about the strategic stability? Either one of you.
    Ms. Thompson. Senator, if I may. Particularly to Russia but 
to other countries as well, as one that oversees the arms 
control and the treaties writ large, is the emerging 
technologies. I have talked with some of the staff of late. 
Artificial intelligence, the hypersonics, cyber, although here, 
but the further development. And those are the type of 
technologies that we need to get our arms around with 
responsible nation states activities and what that looks like. 
So I see that as being the future of arms control as some of 
these emerging technologies and how they are integrated into 
the arms control treaties.
    The Chairman. Are you sensing that we are losing an edge in 
those future technologies or that someone is gaining advantage?
    Ms. Thompson. Sir, I am confident in our technologies. We 
have some work in international forums as well on what that 
means to adherence in arms control as these technologies 
develop.
    The Chairman. Do you want to make any comment?
    Mr. Trachtenberg. Yes, Senator. I would agree with that, 
and I would say with the support of the Congress that the 
Department of Defense has had, for which we thank you very 
much, we believe going forward and investing in these types of 
technologies that Under Secretary Thompson has talked about are 
essential to maintaining the United States' military advantages 
going forward. Otherwise, we do run the risk of falling behind 
and having that negatively impact our overall national security 
objectives.
    The Chairman. Well, we thank you both.
    The record will remain open for written questions through 
the close of business Thursday. If you could respond to those 
fairly quickly, we would appreciate it.
    We thank you both for being here, for sharing your 
knowledge and insights.
    And with that, the committee is adjourned.
    [Whereupon, at 11:50 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


    Responses of Hon. Andrea L. Thompson to Questions Submitted by 
                          Senator Marco Rubio

         compliance issues with inf treaty and new start treaty
    In a March speech, Russian President Vladimir Putin unveiled 
details of new weapons supposedly under development that he described 
nearly a dozen times as ``strategic'' in the Kremlin's English 
translation. These new kinds of strategic nuclear arms include 
hypersonic nuclear cruise missiles and nuclear-powered ballistic 
missiles, and a nuclear torpedoes shot from drone submarines. I 
appreciated hearing your view that some, if not all, of these new kinds 
of Russian strategic nuclear arms, which are said by Putin to be under 
development, could fall under the New START Treaty's limits on 
strategic weapons.

    Question. For the written record, I wanted to confirm whether or 
not the United States has ever asked the Russians to notify these new 
kinds of strategic nuclear arms, or ever otherwise discussed or raised 
these systems with Russian officials, in the context of the under the 
U.S.-Russian bilateral consultative commission (BCC) or via any other 
channel?

    Answer. The United States has raised questions related to the 
systems unveiled during President Putin's March 1 address with Russian 
officials in the appropriate fora. The Administration is happy to 
provide additional detail in a classified setting.

    As you acknowledged in your testimony, Russia is violating the 
Intermediate-Range Nuclear Forces Treaty (INF Treaty). Rather than own-
up to its noncompliance and resolve these issues in good faith, 
however, the Kremlin has repeatedly tried to change the narrative by 
accusing the U.S. government of violating the INF Treaty.

    Question. What allegations are the Russians making about U.S. 
violations of the INF Treaty? Is there any truth to these allegations?

    Answer. The United States is in full compliance with its INF Treaty 
obligations. The Russian Federation has raised three main areas of 
concern regarding U.S. compliance with its obligations: the Aegis 
Ashore Ballistic Missile Defense system; ballistic target missiles; and 
armed unmanned aerial vehicles (UAVs). The United States has repeatedly 
engaged Russian officials in multiple venues, including the Treaty's 
Special Verification Commission (SVC), to explain why U.S. actions in 
these areas are compliant with the Treaty.
    The United States has consistently addressed Russia's questions in 
a transparent, substantive, and constructive manner, while Russian 
officials have refused to engage in any serious discussion of the U.S. 
concerns or take steps to return to compliance. Instead, Russia has 
sought to deflect U.S. concerns by accusing the United States of being 
the party in violation of the INF Treaty.

    Question. Does the Russian government expressly acknowledge that 
the United States is in full compliance with New START?

    Answer. While Russia has raised concerns about U.S. implementation 
of the New START Treaty, Russia has not accused the United States of 
violating the Treaty. In its official response to the U.S. Report on 
Adherence to and Compliance with Arms Control, Nonproliferation, and 
Disarmament Agreements and Commitments covering 2017, the Russian 
Federation claims that the United States achieved some of its 
reductions under the New START Treaty ``by manipulations that are 
incorrect from the point of view of contractual practice.'' 
Specifically, Russia claims that the United States incorrectly removed 
some items from New START accountability using conversion procedures 
that Russian inspectors cannot verify.

    The United States is in full compliance with its obligations under 
the New START Treaty. Russia's assertions are baseless. The United 
States converted and removed these items from the Treaty's 
accountability in accordance with the Treaty's provisions. The United 
States has exhaustively addressed Russia's concerns in the Treaty's 
Bilateral Consultative Commission, and will continue to answer 
questions related to these issues in the confidential Treaty 
implementation body designed for such discussions.

    Question. Is the Russian government currently in full compliance 
with the INF Treaty? And with the New START Treaty?

    Answer. Russia remains in violation of its obligations under the 
INF Treaty not to produce, possess, or flight-test a ground-launched 
ballistic or cruise missile with a range capability between 500 and 
5,500 kilometers. The United States announced this finding in 2014, and 
has repeated the finding every year since. Russia has taken steps to 
develop, test, and field a ground-launched cruise missile, the SSC-8 
(9M729), that can fly to ranges prohibited by the Treaty. The 
Administration is happy to provide additional detail in a classified 
briefing.
    Russia is in compliance with the New START Treaty. Every six 
months, the Parties exchange declared data on their strategic offensive 
arms, which is confirmed via the Treaty's verification regime, 
including on-site inspections and monitoring through national technical 
means. The aggregate data from these exchanges is made available on the 
State Department website. Per the most recent data exchange, Russia had 
met the Treaty's central limits as of February 5, 2018.

    Question. If Russia refuses to do what's required to get in full 
compliance with the INF Treaty, what should the United States do in 
terms of the future of the INF Treaty?

    Answer. Since 2014, the United States has sought to return Russia 
to full, verifiable compliance with the Treaty. In 2017, the United 
States announced its Integrated Strategy to pressure Russia to return 
to compliance, while ensuring through coordinated action with allies 
and partners that Russia does not gain a military advantage from its 
violation. Russian officials have so far refused to take substantive 
steps to return to compliance, or persuasively refute the information 
provided by the United States.

    The status quo, whereby the United States remains bound by its INF 
obligations while Russia continues its violation, is untenable. Since, 
2017, the Administration has pursued diplomatic, economic, and military 
means to increase pressure on Russia to return to compliance, and 
ensure that the United States is able to defend itself and allies 
should Russia not return to compliance.

    Question. Given Russia's ongoing noncompliance with the INF Treaty, 
does it make sense to start negotiations for an extension or follow-on 
to the New START Treaty before Russia comes into full compliance with 
the INF Treaty?

    Answer. Russia's ongoing violation of the INF Treaty creates a 
deficit of trust in the arms control relationship. The United States is 
committed to arms control efforts that advance U.S., allied, and 
partner security. This commitment necessitates that the United States 
have a partner which is willing to comply responsibly with its 
obligations. That said, Russia is in compliance with its obligations 
under the New START Treaty, which continues to serve as an example of 
what both sides can accomplish when Russia lives up to its obligations. 
The Administration's analysis of whether to support extending the New 
START Treaty--or negotiate a follow-on agreement--will take into 
context Russia's behavior in other arms control agreements, and the 
security needs of the United States and its allies.

    Question. What strategy does the United States have for addressing, 
diplomatically and militarily, the growth of Russian tactical nuclear 
weapons and other nuclear weapons systems, which the Kremlin is 
fielding for potential use in military contingencies in Europe, but 
which are not covered by the New START Treaty or the INF Treaty?

    Answer. Diplomatically, the United States remains committed to 
pursuing future negotiations with Russia to increase transparency of 
and reduce the threat posed by Russia's nonstrategic nuclear weapons if 
conditions permit, provided that the outcome would improve the security 
of the United States and its allies and partners. The United States 
remains committed to consulting closely with NATO Allies and will take 
into account NATO requirements in the context of any discussions with 
Russia on nonstrategic nuclear weapons. Arms control requires a willing 
partner and a conducive strategic environment. Russia has repeatedly 
refused to engage in discussions related to its nonstrategic nuclear 
forces. When this issue has been raised with Russia in the past, it has 
routinely imposed preconditions on any such discussion. These 
conditions are unacceptable to the United States and its allies.
    Militarily, the 2018 Nuclear Posture Review calls for the 
development of two U.S. supplemental capabilities, a low-yield 
submarine launched ballistic missile and a sea-launched cruise missile, 
to counter mistaken Russian perceptions of an exploitable gap in U.S. 
regional deterrence capabilities. Furthermore, the U.S. pursuit of a 
sea-launched cruise missile may provide incentive for Russia to 
negotiate seriously a reduction of its tactical nuclear weapons.

    Question. Was the future of the New START treaty discussed during 
the drafting of the 2018 Nuclear Posture Review?

    Answer. The 2018 Nuclear Posture Review (NPR) states that the 
United States is committed to implementing the New START Treaty and 
continuing to verify Russian compliance. It also notes that the Treaty 
may be extended, by mutual agreement, until 2026. The NPR does not take 
a position on whether to support an extension, as the interagency is 
currently conducting a review regarding whether extending the Treaty is 
in the U.S. national security interest. The NPR does seek to ensure 
that the United States is postured to field nuclear capabilities to 
deter adversaries in any threat environment, including contributing to 
the capacity to hedge against an uncertain future.

    Question. Are there any ongoing discussions, or plans to hold 
discussions, in the interagency to determine potential impacts on 
nuclear modernization and whether the treaty should be extended?

    Answer. Any decision whether to support extending the New START 
Treaty will include an analysis of ongoing U.S. modernization efforts, 
and a projection of U.S. deterrence requirements over the period of a 
potential extension. It is critical that we maintain the ability to 
meet our deterrence and assurance objectives. Constraining adversaries' 
arsenals through arms control agreements remains a potential tool to 
help achieve this goal.

    Question. If the treaty were not to be extended, would the 2018 NPR 
require a revision?

    Answer. No. The 2018 NPR focused on ensuring U.S. nuclear 
capabilities are flexible, adaptable, and resilient. It is strategy 
driven and provides guidance for the nuclear force structure and policy 
requirements needed now and in the future to maintain peace and 
stability in a rapidly shifting environment with significant future 
uncertainty.
                                  ctbt
    Some experts have suggested that the Russians, and perhaps also the 
Chinese, have conducted low-yield events, skirting the definition of a 
test in the Comprehensive Test-Ban Treaty (CTBT).

    Question. Has Russia or China ever conducted any nuclear weapons-
related events or testing that circumvents the spirit or the letter of 
the CTBT?

    Answer. Neither Russia nor China has publicly defined the scope of 
its unilateral nuclear testing moratoria. Thus, it is difficult to 
assess the compliance of any testing activities with either country's 
moratorium.

    Question. Does the State Department view Russia's or China's 
nuclear weapons-related events or testing activities as violating 
either the spirit or the letter of the CTBT?

    Answer. Neither Russia nor China has publicly defined the scope of 
its unilateral nuclear testing moratoria. Thus, it is difficult to 
assess the compliance of any testing activities with either country's 
moratorium. Any activities conducted in accordance with the U.S. 
definition of its nuclear weapons explosive test moratorium would be 
viewed as consistent with spirit and letter of the CTBT.
                    russian chemical weapon attacks
    The United Kingdom has formally accused the Russian Federation of 
being behind the chemical weapons attack with the Novichok nerve agent 
that targeted Sergey Skripal and his daughter in Salisbury, England, 
severely injuring both of them and resulting in the death of two other 
U.K. citizens.

    Question. Does the United States agree with Britain's assessment 
that the Russian Federation is behind the Novichok nerve agent attack 
in Salisbury?

    Answer. The United States agrees with the U.K.'s assessment that 
Russia is responsible for the use of chemical weapons on U.K. soil. 
Only Russia has the motive, means, and record to conduct such an 
attack. Russia developed the class of military-grade nerve agents of 
the type used in Salisbury and has a record of conducting state-
sponsored assassinations. We also have full confidence in the 
evidentiary basis for the U.K.'s indictment against the two suspects 
identified by U.K.'s authorities as officers from the Russian military 
intelligence service, also known as the GRU, and that this operation 
was almost certainly approved at a senior government level. We have 
already taken action together to disrupt the activities of the GRU 
through the largest collective expulsion of undeclared intelligence 
officers.

    Question. Does the United States assess the Russian Federation, a 
signatory to the Chemical Weapons Convention (CWC), to be in compliance 
with or violation of the CWC?

    Answer. The United States has certified to Congress that Russia is 
in non-compliance with its obligations under the Chemical Weapons 
Convention for declaration of its: (1) chemical weapon production 
facilities; (2) CW development facilities; and (3) CW stockpiles. The 
Russian-perpetrated attack with a military-grade nerve agent in 
Salisbury further reinforces our long-standing view that Russia is not 
in compliance with its obligations under the CWC. In light of the 
extraordinary, urgent and grave nature of the attack in the U.K., this 
event was addressed in the State Department's 2018 Report on Adherence 
to and Compliance with Arms Control, Nonproliferation, and Disarmament 
Agreements and Commitments.

    Question. Is it accurate that the Kim regime's assassination of Kim 
Jong-un's half-brother, Kim Jong-nam, using chemical weapons influenced 
or was a factor in the United States's decision to relist North Korea 
as a state sponsor of terrorism?

    Answer. On November 20, 2017, the Secretary of State designated the 
Democratic People's Republic of Korea (DPRK) as a State Sponsor of 
Terrorism. The Secretary determined that the Government of the DPRK has 
repeatedly provided support for acts of international terrorism, as the 
DPRK has been implicated in assassinations on foreign soil. These 
terrorist acts are in keeping with the DPRK's wider range of dangerous 
and malicious behavior, including continued nuclear and ballistic 
missile testing and development as well as Kim Jong Un's threats 
against American cities and territories and those of our allies.

    Question. Given that the Russian Federation, like North Korea, has 
used chemical weapons against political opponents, and give Putin's 
support for Syria's Assad regime--itself designated as a state sponsor 
of terrorism--is the Administration considering adding Russia to the 
list of state sponsors of terrorism?

    Answer. As a matter of law, in order for any country to be 
designated as a State Sponsor of Terrorism, the Secretary of State must 
determine after a careful review of all available evidence that the 
government of that country has repeatedly provided support for acts of 
international terrorism. The State Department consistently reviews all 
of the available information and intelligence, from a variety of 
sources; it is an ongoing process and all information is evaluated in 
its entirety and must be credible, verified, and corroborated. The U.S. 
government has already taken a number of significant and effective 
steps to indicate our concern about and respond to Russian aggression 
and destabilizing behavior. We will continue applying pressure until 
Russia chooses to become a responsible member of the international 
community.
                               __________

    Responses of Hon. Andrea L. Thompson to Questions Submitted by 
                        Senator Robert Menendez

                           open skies treaty
    From September 2-10, 2018, experts from the United States and 22 
other States Parties met in Russia for the Certification of Russia's 
Tu-214 Open Skies aircraft and its associated sensor. This was the same 
sensor the United States previously determined in 2016 met the treaty 
requirements. At the meeting, all other treaty parties approved the 
sensor expect the United States, which declined to do so. The United 
States then apparently back tracked on its decision and certified the 
Russian aircraft.

    Question. Did the United States consult our allies before the 
September meeting about our decision not to certify the plane at that 
time?

    Answer. The United States closely collaborated with our Allies and 
partners in the Open Skies Treaty throughout the 120-plus day 
certification process, to include on the ground in Russia during the 
final Certification Event from September 2-10, 2018.

    Question. How did the State Department specifically come to the 
decision not to certify the plane? And why did it reverse this 
decision?

    Answer. At the conclusion of the Certification Event on September 
10, the United States declined to sign the final certification report, 
citing ongoing discussions in Washington. We made clear that this did 
not preclude the United States from certifying the Russian aircraft 
following the completion of those discussions. Subsequently, the United 
States informed all States Parties on September 18, via formal Open 
Skies Treaty mechanisms, that we would approve the certification of the 
Russian aircraft.

    Question. What legal and technical issues were identified for not 
certifying the plane?

    Answer. The United States did not sign the Certification Report for 
Russia's aircraft on September 10, stating that further discussions in 
Washington were required. On September 18, we informed all States 
Parties that we would certify the Russian aircraft and on September 24, 
the United States signed the Certification Report on the margins of the 
Open Skies Consultative Commission plenary meeting in Vienna. All 23 
states participating in the certification event concluded that the 
Russian aircraft and its associate sensor met the Treaty's requirements 
for certification.

    Question. Is the United States seeking to use certification 
decisions as a political tool to put pressure on Russia for its Open 
Skies violations? Would the United States be in violation of our legal 
obligation under the Open Skies treaty if we held up certification of 
aircraft and associated sensors without a technical justification for 
our decision?

    Answer. Under the Open Skies Treaty certifications follow a 
technical process intended to ensure, through extensive and intrusive 
inspections, that the aircraft and sensor combination being presented 
for certification meets the relevant requirements of the Treaty. The 
United States has not linked its position on such certifications to the 
resolution of Russia's violations of the Treaty.

    Question. In your testimony in front of the committee U/S Thompson, 
you stated that the United States has not brought up Russia's newly 
unveiled systems with the Russian Federation in the Bilateral 
Consultative Commission. Would you like to correct the record on that 
issue?

    Answer. The United States has raised questions related to the 
systems unveiled during President Putin's March 1 address with Russian 
officials in the appropriate fora. The Administration is happy to 
provide additional detail in a classified setting.

    Question. Has the United States assessed which of the systems 
President Putin unveiled in March 2018 would be constrained by New 
START?

    Answer. The following categories of strategic offensive arms are 
subject to the New START Treaty's central limits and verification 
provisions: ICBMs, SLBMs, and heavy bombers. Regarding new kinds of 
strategic offensive arms, the New START Treaty states in Article V 
that, ``When a Party believes that a new kind of strategic offensive 
arm is emerging, that Party shall have the right to raise the question 
of such a strategic offensive arm for consideration in the Bilateral 
Consultative Commission.'' As provided in Section I of Part Six of the 
Protocol to the Treaty, it is within the authority of the Bilateral 
Consultative Commission to ``[r]esolve questions related to the 
applicability of provisions of the Treaty to a new kind of strategic 
offensive arm.'' The United States is in the process of engaging the 
Russian Federation on whether the new systems announced by President 
Putin qualify as ``new kinds'' of strategic offensive arms, and if so, 
whether and how New START Treaty provisions would apply to these 
systems.

    Question. Has the United States assessed whether the new Russian 
systems unveiled in March 2018 will be deployed during the lifetime of 
New START?

    Answer. I defer to the Intelligence Community's assessment on this 
topic.

    Question. Has the United States assessed when Russia's newly 
unveiled systems are likely to be fielded and deployed by the Russian 
military?

    Answer. I defer to the Intelligence Community's assessment on this 
topic.

    Question. As part of our pressure campaign to push the Russian 
Federation back into compliance, has the United States called upon 
Russia to halt production of the 9M729?

    Answer. Yes. The Administration is happy to provide additional 
detail in a classified briefing.

    Question. Has the Russian Federation halted production of the 
9M729?

    Answer. No, to our knowledge the Russian Federation has taken no 
steps to return to compliance. The Administration is happy to provide 
additional detail in a classified briefing.

    Question. Has the United States asked Russia to provide an 
exhibition of the 9M729 so U.S. experts can review its technical 
characteristics and determine whether it can fly more than 500km, which 
would violate the treaty?

    Answer. Yes. The Administration is happy to provide additional 
detail in a classified briefing.

    Question. Has the Russian government put forward any proposals to 
address the United States concerns about the 9M729?

    Answer. No.

    Question. Has the United States scheduled another meeting of the 
Special Verification Commission (SVC) or a bilateral meeting with 
Russia to discuss a diplomatic solution to Russia's INF violation?

    Answer. There are no meetings specifically on INF scheduled at this 
time. The Administration regularly raises Russia's INF Treaty violation 
and other noncompliance issues in appropriate meetings with Russian 
officials.

    Question. The United States and Russia held a first round of 
strategic stability talks last September in Helsinki. These talks in 
the past have been critical for reducing the risk of nuclear conflict. 
Does the administration support a resumption of strategic stability 
talks?

    Answer. At their meeting in Helsinki earlier this year, President 
Trump and President Putin directed their respective national security 
advisors to continue discussions on issues relevant to easing tensions 
in the U.S.-Russia relationship and to explore cooperation in areas of 
mutual interest. As Ambassador Bolton stated after meeting his Russian 
counterpart, Security Council Secretary Nikolai Patrushev, in August, 
the two sides discussed a number of issues, including some related to 
strategic stability. This was just one example of the various fora 
where the United States and Russia discuss matters relating to 
strategic stability. We will continue these discussions as appropriate 
in the interest of U.S. national security.

    Question. Has Russia indicated whether they support resumption of 
the talks?

    Answer. At their meeting in Helsinki earlier this year, President 
Trump and President Putin directed their respective national security 
advisors to continue discussions on issues relevant to easing tensions 
in the U.S.-Russia relationship and to explore cooperation in areas of 
mutual interest. As Ambassador Bolton stated after meeting his Russian 
counterpart, Security Council Secretary Nikolai Patrushev, in August, 
the two sides discussed a number of issues, including some related to 
strategic stability. This was just one example of the various fora 
where the United States and Russia discuss matters relating to 
strategic stability. We will continue these discussions as appropriate 
in the interest of U.S. national security.

    Question. In future strategic stability talks will the United 
States raise hypersonic delivery systems and cyberattacks as potential 
dangers to strategic stability?

    Answer. The Administration acknowledges the danger of hypersonic 
delivery vehicles and cyber-attacks to U.S. security. The United States 
and Russia will discuss appropriate security topics at the appropriate 
time.
                         missile defense review

    Question. The Missile Defense Review mandated by Congress was 
originally scheduled for release alongside the Nuclear Posture Review 
in February. However, Congress has still not received a copy of this 
report. When will the Administration publish its Missile Defense 
Review?

    Answer. The MDR is nearing completion, but we refer you to the 
Department of Defense for the precise timing of its release.

    Question. What has delayed the process?

    Answer. The Administration's efforts to prepare the MDR have been 
very thorough and comprehensive in order to produce a document in line 
with the National Security Strategy, the National Defense Strategy, and 
the Nuclear Posture Review. These efforts have taken longer than 
planned.

    Question. Do you agree there is an interrelationship between 
strategic offensive arms and defensive strategic arms?

    Answer. The Preamble of the New START Treaty contains a statement 
acknowledging the interrelationship of strategic offensive and 
strategic defensive arms.

    Question. Have U.S. strategic missile defense deployments 
influenced the size, capabilities, and posture of Russian and Chinese 
nuclear forces since the United States withdrew from the ABM treaty?

    Answer. Russia and China are completing long-term modernization 
programs for their strategic nuclear forces and developing a range of 
technologies to ensure the viability of their strategic deterrents. The 
overall objectives and initiation of these modernization programs are 
not premised on U.S. withdrawal from the ABM Treaty.
    U.S. ballistic missile defense (BMD) is defensive in nature. The 
United States has been open and transparent and stressed that our 
missile defenses are not directed against Russia or China and will not 
undermine Russia's or China's strategic deterrence capabilities.
    The threat to the populations, territory, and forces of the United 
States and its friends and allies, posed by the proliferation of 
ballistic missiles continues to increase, and missile defense forms 
part of a broader response to counter it. U.S. BMD, along with the BMD 
of friends and allies, enhances regional stability by countering the 
coercive power of ballistic missiles.
                               __________

    Responses of Hon. Andrea L. Thompson to Questions Submitted by 
                        Senator Edward J. Markey

                            new start treaty
    In comments just a few weeks ago, National Security Advisor Bolton 
said the Trump administration is ``very, very early in the process of 
considering'' what it wants to do about the New START Treaty:

    Question. Is this the first time since the Trump administration 
came into office in January 2017 that the State Department is reviewing 
its position with regard to the New START Treaty? If so, why is the 
Trump administration just starting its review now? If not, why is the 
Trump administration re-reviewing its position with regard to New 
START?

    Answer. The Administration is committed to implementing the New 
START Treaty, as stated in the 2018 Nuclear Posture Review--a DoD-led 
interagency process in which the Department of State participated. The 
Administration is currently reviewing whether to extend the New START 
Treaty beyond its scheduled expiration on February 5, 2021. The 
Administration began reviewing the status of all arms control treaties 
and agreement in January 2017, including the New START Treaty. The 
Administration initially focused on assessing Russia's current 
compliance with the New START Treaty, assessing Russian progress toward 
meeting the central limits by the February 2018 deadline, and Russia's 
compliance with other treaties and agreements. Now that we assess that 
Russia met the central limits by the February 2018 deadline, the 
Administration is focused on monitoring Russia's on-going 
implementation of the New START Treaty and other treaties.

    Question. What specifically is being reviewed in the ``process'' to 
which Ambassador Bolton referred? What is the timeline for completion 
of this review?

    Answer. The Administration is assessing the value, risks, and 
consequences to U.S. national security of either extending the New 
START Treaty beyond February 5, 2021, or not extending it. The Treaty 
expires on that date unless it is extended for up to five years by 
mutual agreement between the United States and Russia. There is no 
timeline for the completion of this review.

    Question. Recognizing that the State Department is one of many 
parties that participates in interagency national security decision-
making, what specifically is the State Department's position with 
regard to the New START Treaty? Does the State Department believe the 
New START Treaty is in the national security interest of the United 
States? If so, will the State Department recommend to the National 
Security Council that the United States seek extension of the New START 
Treaty?

    Answer. The United States and Russia are in compliance with their 
New START Treaty obligations. In February of this year, both countries 
met the Treaty's central limits. The United States benefits from the 
Treaty's 18 annual on-site inspections, notifications, and biannual 
data exchanges, which give us insight into the number of Russia's 
strategic offensive arms subject to the Treaty and where they are at 
any given time. We are committed to implementing the Treaty and 
verifying Russian compliance.

    Question. Does the State Department believe the New START Treaty is 
in the national security interest of the United States? If so, will the 
State Department recommend to the National Security Council that the 
United States seek extension of the New START Treaty?

    Answer. The 2018 Nuclear Posture Review affirmed the United States 
will continue to implement the New START Treaty and verify Russian 
compliance. Any decision on supporting an extension of New START beyond 
2021 will take into context Russia's behavior in other arms control 
agreements, as well as the security needs of the United States and its 
allies. Russia's continued compliance with New START is an absolute 
requirement for any potential extension of the Treaty, and we continue 
to assess the value, risks, and consequences to U.S. national security 
of either extending the New START Treaty or not extending it.

    Question. What are the diplomatic consequences of not extending the 
New START Treaty? If New START were to expire, how does the State 
Department anticipate America's partners and allies in Europe and 
elsewhere around the world would react?

    Answer. As observed in the 2018 Nuclear Posture Review, the United 
States is committed to arms control efforts that advance U.S, allied, 
and partner security; are verifiable and enforceable; and include 
partners that comply responsibly with their obligations. All U.S. 
allies support implementation of the New START Treaty. Any decision 
regarding a potential extension of the New START Treaty will take into 
account allied and partner views.
             intermediate range nuclear forces (inf) treaty
    Last December the Trump administration announced ``new diplomatic, 
military, and economic measures intended to induce'' Russia ``to return 
to compliance'' with the Intermediate Range Nuclear Forces (INF) Treaty 
and ``to deny it any military advantage should it persist in its 
violation.'' This included beginning research on ``concepts and options 
for conventional, ground-launched, intermediate-range missile 
systems:''

    Question. What is the status of the diplomatic efforts referred to? 
What specific efforts has the State Department undertaken to mobilize 
European partners and allies to put multilateral pressure on Russia to 
return to compliance with its INF obligations?

    Answer. Since 2013, the United States has sought to induce Russia 
to return to full, verifiable compliance with the Treaty. In December 
2017, the United States announced its Integrated Strategy to pressure 
Russia to return to compliance while ensuring through coordinated 
action with allies and partners that Russia does not gain a military 
advantage from its violation.
    The United States has sought a diplomatic resolution through all 
viable channels, including the INF Treaty's Special Verification 
Commission (SVC) established to ``resolve questions relating to 
compliance with the obligations assumed.'' The SVC most recently met 
December 12-14, 2017, and previously November 16-18, 2016. The SVC 
includes Belarus, Kazakhstan, Russia, United States, and Ukraine--the 
Treaty parties who agreed to continue participation in this 
implementation body after the fall of the Soviet Union. The diplomatic 
effort has also included bilateral meetings, including a technical 
experts meeting on June 20-21, 2018. In addition, the United States 
strives to keep allies informed of our efforts to pressure Russia to 
return to compliance with the Treaty. This is evidenced by a December 
2017 North Atlantic Council statement concerning Russia's INF 
compliance, and a statement on the INF Treaty in the Brussels Summit 
Declaration this summer with the strongest Alliance language to date on 
NATO's concerns with Russia's compliance with the Treaty.
    A more detailed accounting of specific engagements on the INF 
Treaty with allies and Russia is contained in the relevant portions of 
the classified version of the Report on Noncompliance by the Russian 
Federation with its Obligations under the INF Treaty delivered 
quarterly to Congress.

    Question. Is the INF Treaty in the U.S. national security interest?

    Answer. The Administration believes the INF Treaty is in the U.S. 
national security interest if all parties are in compliance with their 
obligations.

    Question. When will State Department representatives next meet with 
Russian counterparts to discuss how to resolve Russia's current 
noncompliance with the INF Treaty?

    Answer. There are no meetings specifically on INF scheduled at this 
time. The Administration regularly raises Russia's INF Treaty violation 
and other noncompliance issues in appropriate meetings with Russian 
officials.

    Question. Has the State Department been instructed to ask European 
allies and partners to consider hosting a potential U.S. ground-
launched, intermediate-range missile system? Have any European allies 
or partners volunteered to do so?

    Answer. No.
                           open skies treaty
    On September 10, 2018 the United States refused to certify the new 
Russian Tu-214 aircraft for flights under the Treaty on Open Skies. At 
the time, the United States was the only country to vote against 
certification. You represented that the reason for this vote was that 
U.S. experts wanted more time to review additional data before making a 
final decision:

    Question. Who made the decision that additional data was needed 
before the United States could certify Russia's new aircraft? What 
specific data was reviewed and why wasn't this information available to 
the United States before the September 10 meeting?

    Answer. Technical experts from the United States and 22 other 
States Parties participated in the Certification Event for Russia's Tu-
214 aircraft from September 2-10, 2018. At its conclusion, the United 
States declined to consent to the certification due to ongoing 
discussions in Washington. No additional data was required from the 
Russian Federation at that time. On September 18, the United States 
informed all States Parties that it would certify Russia's aircraft.

    Question. What instructions did you provide to the State Department 
delegation before departing Washington, DC to attend the September 10, 
2018 meeting regarding certification of Russia's new Open Skies 
aircraft? Was the delegation specifically instructed to refuse to 
certify the aircraft and collect additional data, or was that decision 
made later?

    Answer. Prior to the certification team's departure to Russia to 
participate in the Certification Event, the Senior U.S. Representative 
received technical guidance for U.S. participation in the inspection of 
Russia's aircraft and sensor. Prior to the signing ceremony on 
September 10, the U.S. team was instructed not to sign the 
Certification Report, pending further discussions in Washington.

    Question. Before the vote, did the United States give our European 
partners or allies like France or Canada or the U.K. and warning of our 
planned objection? If so, how far in advance?

    Answer. The United States closely collaborated with our Allies and 
partners in the Open Skies Treaty throughout the 120-plus day 
certification process, to include on the ground in Russia during the 
final Certification Event from September 2-10, 2018.

    Question. In the State Department's view, is the Open Skies Treaty 
in the U.S. national security interest?

    Answer. Yes, the Department continues to believe the Open Skies 
Treaty is in the national security interest of the United States. The 
Treaty contributes to stability through the transparency and confidence 
building it provides among its 34 States Parties. This is particularly 
important during this time of increased tensions in Europe.
                         emerging technologies
    Question. Emerging technologies--such as hypersonic weapons and 
artificial intelligence--may potentially impact strategic stability. 
The science and technology behind these weapons is advancing rapidly, 
while the policy and diplomatic conversation is not. What discussions 
is the State Department having within the U.S. government to develop a 
diplomatic strategy for engaging with Russia, China, and others on how 
these weapons intersect with America's national security and foreign 
policy? Have you raised the possibility of discussing these issues with 
Russia, China, or others? Could our strategic stability talks with 
Russia provide a good platform for having these discussions?

    Answer. You are correct. Emerging technologies such as hypersonic 
weapons, artificial intelligence, and others, could have the potential 
to impact strategic stability. This was a driver behind Secretary 
Pompeo's June 30, 2018, decision to create a new Cyberspace Security 
and Emerging Technology Bureau that would report to the Under Secretary 
for Arms Control and International Security. This Bureau will oversee 
the Department's efforts to pursue international engagements, in 
bilateral and multilateral venues, to advance U.S. national security 
interests in these areas. The Department will be raising these issues 
with our foreign counterparts as opportunities become available, to 
include potentially at strategic stability talks.

    Question. Both the State and Defense Departments appear to support 
resuming our strategic stability talks with Russia. John Rood, 
undersecretary of defense for policy, said July 20 at the Aspen 
Security Forum said that, ``we would also like to talk more about 
strategic stability, making sure there are clear understandings between 
the United States and Russia about these terribly lethal weapons that 
we both control and talk about the future of nonproliferation.'' 
Despite a Presidential summit and meeting between our national security 
advisors, no new talks have been scheduled. Why?

    Answer. At their meeting in Helsinki earlier this year, President 
Trump and President Putin directed their respective national security 
advisors to continue discussions on issues relevant to easing tensions 
in the U.S.-Russia relationship and to explore cooperation in areas of 
mutual interest. As Ambassador Bolton stated after meeting his Russian 
counterpart, Security Council Secretary Nikolai Patrushev, in August, 
the two sides discussed a number of issues, including some related to 
strategic stability. This was just one example of the various fora 
where the United States and Russia discuss matters relating to 
strategic stability. We will continue these discussions as appropriate 
in the interest of U.S. national security.

    Question. When does the State Department estimate the next round of 
strategic stability talks will occur? Who does the State Department 
anticipate will lead the U.S. and Russian delegations to these talks?

    Answer. At their meeting in Helsinki earlier this year, President 
Trump and President Putin directed their respective national security 
advisors to continue discussions on issues relevant to easing tensions 
in the U.S.-Russia relationship and to explore cooperation in areas of 
mutual interest. As Ambassador Bolton stated after meeting his Russian 
counterpart, Security Council Secretary Nikolai Patrushev, in August, 
the two sides discussed a number of issues, including some related to 
strategic stability. This was just one example of the various fora 
where the United States and Russia discuss matters relating to 
strategic stability. We will continue these discussions as appropriate 
in the interest of U.S. national security.

    Question. The Trump administration has repeatedly asserted that 
Russia has adopted a policy of escalate to de-escalate--a doctrine in 
which they would use a nuclear weapon to end a conventional conflict 
they were losing. Has the State Department explicitly asked its 
counterparts in either the Russian Ministry of Defense, the Russian 
Ministry of Foreign Affairs, or the Russian military about this 
supposed doctrine? If not, why not?

    Answer. As explained in the Administration's 2018 Nuclear Posture 
Review, Russian strategy and doctrine emphasize the potential coercive 
and military uses of nuclear weapons. Russia mistakenly assesses that 
the threat of nuclear escalation or actual first use of nuclear weapons 
would serve to ``de-escalate'' a conflict on terms favorable to Russia. 
These mistaken perceptions increase the prospect for dangerous 
miscalculation and escalation.
    The United States has discussed the Nuclear Posture Review with 
Russia, and has regularly expressed concerns regarding Russia's nuclear 
strategy and doctrine to Russian officials. As the two countries hold 
the preponderance of the world's nuclear weapons, we have to manage our 
relations by adopting responsible nuclear doctrines to avoid 
unnecessary conflict and maintain strategic stability.

    Question. The Trump administration began talks earlier this year on 
a civilian nuclear cooperation agreement with Saudi Arabia. In May, 
Secretary of State Mike Pompeo told this committee that ``we have told 
them [Saudi Arabia] we want a gold-standard Section 123 Agreement from 
them.'' What is the status of the administration's negotiations with 
Saudi Arabia on a possible 123 agreement?

    Answer. The United States and Saudi Arabia have been in 
negotiations for a 123 agreement since 2012, and the negotiations 
remain ongoing.

    Question. The Atomic Energy Act, which is a U.S. law, requires the 
President to keep the Senate Foreign Relations Committee ``fully and 
currently informed of any initiative or negotiations relating to a new 
or amended agreement for peaceful nuclear cooperation.'' Does the State 
Department feel it is meeting this standard?

    Answer. The Department of State is committed to keeping the 
relevant committees informed of the status of all 123 Agreement 
negotiations, consistent with the Department's statutory obligations 
under the Atomic Energy Act, as amended. Department officials would be 
available to brief interested Committee Members in a classified setting 
at an appropriate time.

    Question. In the wake of President Trump's decision to unilaterally 
withdraw from the Iran nuclear deal, Saudi Arabian Foreign Minister 
Adel al-Jubeir told CNN that ``if Iran acquires a nuclear capability, 
we will do everything we can to do the same.'' These remarks echo 
similar comments by Saudi Crown Prince Mohammed bin Salman in March. 
When asked about al-Jubier's comment, the White House press secretary 
said, ``Right now, I don't know that we have a specific policy 
announcement on that front, but I can tell you that we are very 
committed to making sure that Iran does not have nuclear weapons.'' 
Does the administration support the longstanding, bipartisan U.S. 
policy to actively work against the spread of nuclear weapons to any 
country, friend or foe, or does the administration's silence on these 
threats indicate a change to this policy? If no, then why haven't we 
spoken out against Saudi Arabia's comments? Are we somehow okay with 
Saudi Arabia potentially pursuing nuclear weapons?

    Answer. Saudi Arabia is a party to the Nuclear Non-Proliferation 
Treaty (NPT) and a strong security partner of the United States. As an 
NPT Party, Saudi Arabia has a legal obligation never to acquire nuclear 
weapons and to apply full scope IAEA safeguards to all peaceful nuclear 
activities. The United States remains firmly committed to the global 
nuclear nonproliferation regime and to preventing the further spread of 
nuclear weapons, and attaches great importance to Saudi Arabia's 
continued fulfillment of all of its nonproliferation obligations, 
including those under the NPT. In addition, the United States is 
committed to working cooperatively with Saudi Arabia to address the 
full range of Iranian malign activities, which pose a serious threat to 
security and stability in the region.
                 nuclear non-proliferation (npt) treaty
    Question. In the spring of 2020, the parties of the Nuclear Non-
Proliferation Treaty will meet for the Treaty's Review Conference. What 
will the United States present as a demonstration of its commitment to 
its obligations under Article V of the Treaty?

    Answer. Article V of the Treaty on the Nonproliferation of Nuclear 
Weapons (NPT) deals with the peaceful applications of nuclear 
explosions. This provision has never been invoked. In light of efforts 
to maintain a worldwide moratorium on all nuclear test explosions, 
Article V has little practical relevance.

    Question. Why hasn't the Administration pursued the ratification of 
the three Protocols to various Nuclear Weapons Free Zones that are 
currently available for consideration here in the Senate Foreign 
Relations Committee?

    Answer. The United States has historically supported Nuclear 
Weapons Free Zone (NWFZ) treaties as a way for regional states to 
advance regional security and to reinforce the global nuclear 
nonproliferation regime and the Treaty on the Non-Proliferation of 
Nuclear Weapons. NWFZ treaties and their accompanying protocols provide 
a vehicle for extending to NWFZ treaty parties a legally binding 
negative security assurance. The United States has signed the protocols 
to the NWFZ treaties covering Africa, Central Asia, and the South 
Pacific, and the previous Administration submitted them to the U.S. 
Senate for advice and consent to ratification. The Trump Administration 
has not completed its policy review with respect to these protocols.
                         missile defense review
    Question. Do U.S. missile defense policies have an effect on 
strategic stability matters and can those policies have a deleterious 
effect on arms control?

    Answer. Missile defense systems are not destabilizing. Russia 
develops, deploys, and is modernizing its own strategic and regional 
missile defense capabilities. Missile defenses provide a capability to 
protect the U.S. homeland, our deployed forces, and our allies and 
partners. The current limited numbers of interceptors deployed world-
wide do not compare to the thousands of missiles employed by our 
adversaries. For example, our homeland missile defense system 
consisting of 44 deployed Ground-Based Interceptors, is no match for 
Russia's deterrent force of 700 deployed ICBMs, SLBMs, and heavy 
bombers, and 1550 deployed strategic nuclear warheads. Our homeland 
missile defense system is not designed to counter Russia's 
sophisticated ballistic missiles; it is designed to defeat ballistic 
missile threats posed by countries like North Korea and potentially 
Iran. For these reasons, our limited homeland missile defenses pose no 
threat to Russia's nuclear deterrent and do not have a deleterious 
effect on arms control.

    Question. To what extent has the Department of State been involved 
in the formation of the Missile Defense Review? Are there State 
representatives present at all meetings related to the formation of the 
Missile Defense Review? Have you personally been involved in the 
formation of the Missile Defense Review?

    Answer. State representatives up to the level of the Deputy 
Secretary have participated in the Missile Defense Review process, 
including interagency meetings overseeing and approving the drafting of 
the Review. Since my confirmation as Under Secretary for Arms Control 
and International Security earlier this year, I have been personally 
involved in the Missile Defense Review and have had oversight of the 
Department of State's participation in the Review process.
                         missile defense review
    Question. Have our allies been informed about current deliberations 
surrounding the Missile Defense Review? Will they be briefed in advance 
of the release?

    Answer. The Departments of State and Defense consulted with allies 
and partners during the MDR process. We are also collaborating on a 
plan for rolling out the MDR, which includes briefings to Congress as 
well as to allies and partners.
                               __________

    Responses of Hon. Andrea L. Thompson to Questions Submitted by 
                          Senator Jeff Merkley

    Question. Do you agree that it is vital that the United States and 
Russia continue to cooperate on issues related to nuclear weapons, even 
as bilateral relations have deteriorated due to a range of Russian bad 
behaviors?

    Answer. Yes. In Helsinki, the leaders of the United States and 
Russia affirmed the importance of continuing discussion on nuclear 
issues, given that our two countries hold the preponderance of the 
world's nuclear weapons and have a duty to manage our relations 
responsibly.

    Question. In March, President Putin publicly announced the 
development of three new types of nuclear weapons that are either 
purported under development or in a testing phase--a hypersonic nuclear 
armed cruise missile, a new heavy ICBM, and an underwater drone. Would 
these systems be accountable under the New START Treaty if they are 
tested to a range of greater than 5,500 kilometers? Would extending New 
START provide the United States greater transparency into these 
concerning, new strategic systems?

    Answer. The United States has raised questions related to the 
systems unveiled during President Putin's March 1 address with Russian 
officials in the appropriate fora. The Administration is happy to 
provide additional detail in a classified setting.

    Question. Would the predictability and value to our defense 
intelligence community relating to U.S. insight into the number, 
movement and disposition of Russian strategic forces be lost if the New 
START Treaty was allowed to expire in 2021? Would conclusion of a 
treaty or agreement that has no verification regime--along the lines of 
the 2002 Moscow Treaty--provide the same level of insight that is 
presently offered by New START?

    Answer. We refer you to the Intelligence Community for its views on 
the predictability and value of the current treaty.
    Should the Treaty expire, U.S. inspectors would lose their current 
access to Russian strategic nuclear warheads and delivery systems, 
bases, and infrastructure, as well as the Treaty's biannual exchange of 
data and associated updates on the location and status of Russia's 
strategic offensive arms subject to the Treaty. Should New START expire 
and the United States and Russia enter into an agreement that has a 
less robust verification regime, it would not provide the same level of 
insight into Russian systems as the New START Treaty's verification 
regime.

    Question. Is the administration undertaking a review of the risks 
to national security if New START expires? If so, when we can we 
anticipate its completion?

    Answer. The Administration is undertaking a review of whether 
extending the New START Treaty is in the U.S. national security 
interest. This review includes analyzing how the Treaty's expiration 
would impact U.S. national security. The Treaty does not expire until 
February 5, 2021, and there is no timeline for the review's completion.

    Question. The 2013 U.S. Nuclear Employment Strategy states that the 
United States could seek up to a 1/3 reduction in its deployed 
strategic forces below New START and still ``ensure the security of the 
United States and our allies and our partners.'' Is that still the U.S. 
position?

    Answer. The 2018 Nuclear Posture Review (NPR) describes how the 
global security environment has deteriorated in recent years and 
highlights the return of Great Power competition. In his preface to the 
2018 NPR, Secretary Mattis stated ``we must recognize that the current 
environment makes further progress toward nuclear arms reductions in 
the near term extremely challenging.'' While affirming arms control as 
a tool that can contribute to maintaining strategic stability, the NPR 
states ``progress is difficult to envision, however, in an environment 
that is characterized by nuclear-armed states seeking to change borders 
and overturn existing norms, and by significant, continuing non-
compliance with existing arms control obligations and commitments.''

    Question. Has the administration presented Russia with a roadmap 
detailing the steps Russia must take to return to compliance with the 
INF treaty?

    Answer. Yes. The Administration is happy to provide additional 
detail in a classified briefing.

    Question. Do the other Parties to the Treaty--Kazakhstan, Ukraine, 
Belarus--as well as NATO allies support efforts to fix and strengthen 
the INF Treaty?

    Answer. Yes. Kazakhstan, Ukraine, and Belarus, the other INF 
Parties who still participate in the Treaty's Special Verification 
Commission, have recently reaffirmed their commitment to the Treaty.
    NATO allies have spoken on the need to preserve the INF Treaty as 
well, including by noting in this summer's Brussels Summit Declaration 
that the Treaty ``has been crucial to Euro-Atlantic security'' and that 
the Alliance remains ``fully committed to the preservation of this 
landmark arms control treaty.''
    Additionally, NATO maintains ``full compliance with the Treaty is 
essential,'' and that the United States is in compliance with its 
obligations under the INF Treaty. NATO notes in this Declaration ``in 
the absence of any credible answer from Russia on this new missile, the 
most plausible assessment would be that Russia is in violation of the 
Treaty,'' and urges greater transparency by Russia in addressing U.S. 
concerns.

    Question. Is it still the U.S. Government's assessment that Iran 
has complied with its obligations under the Joint Comprehensive Plan of 
Action (JCPOA) as is stated in the 2017 State Department Annual 
Compliance Report, submitted to Congress in April 2018?

    Answer. As reported by the International Atomic Energy Agency 
(IAEA), Iran continues to implement its commitments under the JCPOA. As 
President Trump has made clear, however, we view the JCPOA as a flawed 
deal. Following U.S. withdrawal from the arrangement on May 8, we are 
therefore seeking to impose maximum pressure on Iran to bring it back 
to the negotiating table in order to conclude a comprehensive agreement 
that resolves, not just the nuclear proliferation threats left 
unaddressed by the JCPOA but indeed the totality of Iran's malign 
conduct.
                               __________

    Responses of Hon. Andrea L. Thompson to Questions Submitted by 
                         Senator Cory A. Booker

                       strategic stability talks
    The United States and Russia held a first round of strategic 
stability talks last September in Helsinki. The specific agenda was not 
disclosed. A second round of talks was slated to take place on March 7-
8 in Vienna, but Russia announced that it would not participate in the 
talks, citing the U.S. cancellation of bilateral consultations on 
cybersecurity that had been scheduled to take place in late February in 
Geneva.
    A follow-up meeting on Helsinki between National Security Adviser 
John Bolton and his Russian counterpart, Nikolai Patrushev, in Geneva 
on August 23 had been expected to lead to an agreement to resume 
bilateral strategic stability talks, but no announcement occurred.

    Question. Why has the administration been unable to schedule the 
resumption of strategic stability talks?

    Answer. At their meeting in Helsinki earlier this year, President 
Trump and President Putin directed their respective national security 
advisors to continue discussions on issues relevant to easing tensions 
in the U.S.-Russia relationship and to explore cooperation in areas of 
mutual interest. As Ambassador Bolton stated after meeting his Russian 
counterpart, Security Council Secretary Nikolai Patrushev, in August, 
the two sides discussed a number of issues, including some related to 
strategic stability. This was just one example of the various fora 
where the United States and Russia discuss matters relating to 
strategic stability. We will continue these discussions as appropriate 
in the interest of U.S. national security.

    Question. What is the administration's plan for restarting 
strategic stability talks?

    Answer. At their meeting in Helsinki earlier this year, President 
Trump and President Putin directed their respective national security 
advisors to continue discussions on issues relevant to easing tensions 
in the U.S.-Russia relationship and to explore cooperation in areas of 
mutual interest. As Ambassador Bolton stated after meeting his Russian 
counterpart, Security Council Secretary Nikolai Patrushev, in August, 
the two sides discussed a number of issues, including some related to 
strategic stability. This was just one example of the various fora 
where the United States and Russia discuss matters relating to 
strategic stability. We will continue these discussions as appropriate 
in the interest of U.S. national security.

    Question. What does the administration consider to be the benefits 
of strategic stability talks?

    Answer. At their meeting in Helsinki earlier this year, President 
Trump and President Putin directed their respective national security 
advisors to continue discussions on issues relevant to easing tensions 
in the U.S.-Russia relationship and to explore cooperation in areas of 
mutual interest. As Ambassador Bolton stated after meeting his Russian 
counterpart, Security Council Secretary Nikolai Patrushev, in August, 
the two sides discussed a number of issues, including some related to 
strategic stability. This was just one example of the various fora 
where the United States and Russia discuss matters relating to 
strategic stability. We will continue these discussions as appropriate 
in the interest of U.S. national security.

    Question. What are the administration's goals for future strategic 
stability talks with Russia?

    Answer. At their meeting in Helsinki earlier this year, President 
Trump and President Putin directed their respective national security 
advisors to continue discussions on issues relevant to easing tensions 
in the U.S.-Russia relationship and to explore cooperation in areas of 
mutual interest. As Ambassador Bolton stated after meeting his Russian 
counterpart, Security Council Secretary Nikolai Patrushev, in August, 
the two sides discussed a number of issues, including some related to 
strategic stability. This was just one example of the various fora 
where the United States and Russia discuss matters relating to 
strategic stability. We will continue these discussions as appropriate 
in the interest of U.S. national security.

    Question. If New START is not extended, do you acknowledge that 
modernization plans risk losing the support of many in Congress?

    Answer. The Administration is reviewing whether it will extend New 
START beyond 2021. Regardless of the outcome of this review, fully 
funding the modernization of our nuclear forces is essential to 
ensuring that the U.S. deterrent remains credible. Congress must 
continue its bipartisan support for modernizing U.S. nuclear forces to 
ensure that the United States can continue to meet its deterrence and 
assurance objectives. The 2018 Nuclear Posture Review stated there is 
no higher priority for national defense. The 2017 National Defense 
Authorization Act states that the United States must ``afford the 
highest priority to the modernization of the nuclear triad, dual-
capable aircraft, and related command and control elements.''
    Additionally, the Administration has continued to support arms 
control and disarmament efforts that enhance U.S. national security and 
the security of our allies and partners. We continue efforts to 
minimize the number of nuclear weapons states, deny terrorist 
organizations access to nuclear weapons and materials; strictly control 
weapons-usable material, related technology, and expertise; and seek 
arms control agreements that enhance security, are verifiable and 
enforceable. Specifically, the Administration has supported the goals 
of the Treaty on the Non-Proliferation of Nuclear Weapons, completed 
the reductions of strategic offensive arms under the New START Treaty, 
and has continued full implementation of New START.

    Question. Has the Department considered this potential outcome in 
its review of the New START treaty?

    Answer. Any decision regarding whether to support extending the New 
START Treaty will include an analysis of ongoing U.S. modernization 
efforts and a projection of U.S. deterrence requirements over the 
period of a potential extension. It is critical that we maintain the 
ability to meet our deterrence and assurance requirements. As affirmed 
by the 2018 Nuclear Posture Review, constraining potential adversaries' 
arsenals through arms control agreements remains a tool to help achieve 
this goal.
                               __________

   Responses of Hon. David J. Trachtenberg to Questions Submitted by 
                          Senator Marco Rubio

         compliance issues with inf treaty and new start treaty
    In a March speech, Russian President Vladimir Putin unveiled 
details of new weapons supposedly under development that he described 
nearly a dozen times as ``strategic'' in the Kremlin's English 
translation. These new kinds of strategic nuclear arms include 
hypersonic nuclear cruise missiles and nuclear-powered ballistic 
missiles, and a nuclear torpedoes shot from drone submarines. I 
appreciated hearing your view that some, if not all, of these new kinds 
of Russian strategic nuclear arms, which are said by Putin to be under 
development, could fall under the New START Treaty's limits on 
strategic weapons.

    Question. For the written record, I wanted to confirm whether or 
not the United States has ever asked the Russians to notify these new 
kinds of strategic nuclear arms, or ever otherwise discussed or raised 
these systems with Russian officials, in the context of the under the 
U.S.-Russian bilateral consultative commission (BCC) or via any other 
channel?

    Answer. The United States began raising questions related to these 
new Russian systems earlier this year prior to and during the most 
recent session of the Bilateral Consultative Commission (BCC).

    Question. As you acknowledged in your testimony, Russia is 
violating the Intermediate-Range Nuclear Forces Treaty (INF Treaty). 
Rather than own-up to its noncompliance and resolve these issues in 
good faith, however, the Kremlin has repeatedly tried to change the 
narrative by accusing the U.S. government of violating the INF Treaty. 
What allegations are the Russians making about U.S. violations of the 
INF Treaty? Is there any truth to these allegations?

    Answer. The United States has attempted to address Russia's 
violations with Russian officials since 2013. Thus far, Russia has 
refused to engage in a substantive manner. Instead, the Russian 
Federation raised allegations that falsely assert that the United 
States is in violation of the INF Treaty, allegations that in two cases 
were initially raised and addressed years before the United States 
found Russia in violation of the INF Treaty.
    Russia has accused the United States of violating the INF Treaty in 
three areas: using ballistic target missiles to test missile defense 
systems; armed, unmanned aerial vehicles (UAVs); and Aegis Ashore 
missile defense system capabilities. These accusations are baseless. 
The United States has always been and remains in full compliance with 
all of its INF Treaty obligations. The United States has directly and 
substantively refuted these allegations on multiple occasions in 
meetings with Russian officials.

    Question. Does the Russian government expressly acknowledge that 
the United States is in full compliance with New START?

    Answer. No. In its response to the U.S. Arms Control Compliance 
Report for 2017, the Russian Federation expresses its view of on-going 
implementation of the New START Treaty and alleges ``problems with its 
implementation by the American side.'' Russia claims that the United 
States achieved some of its reductions under the New START Treaty ``by 
manipulations that are incorrect from the point of view of contractual 
practice.'' Specifically, Russia claims that the United States 
``incorrectly removed some items from New START accountability using 
conversions that Russian inspectors cannot verify.''
    The United States is in full compliance with its obligations under 
the New START Treaty. Russia's assertions are baseless. The United 
States converted and removed these items from the New START Treaty's 
accountability in accordance with the Treaty's provisions. The United 
States has exhaustively addressed Russia's concerns in the New START 
Treaty's Bilateral Consultative Commission.

    Question. Is the Russian government currently in full compliance 
with the INF Treaty? And with the New START Treaty?

    Answer. The Russian Federation remains in violation of its 
obligations under the INF Treaty not to possess, produce, or flight-
test a ground-launched cruise missile with a range capability of 500 to 
5,500 kilometers, or to possess or produce launchers of such a missile.
    The United States assesses that the Russian Federation is in 
compliance with the New START Treaty.

    Question. If Russia refuses to do what's required to get in full 
compliance with the INF Treaty, what should the United States do in 
terms of the future of the INF Treaty?

    Answer. Although the Administration's current strategy for 
responding to Russia's INF Treaty violation is aimed at convincing 
Russia to return to compliance, the strategy also acknowledges that the 
United States must be prepared for the eventuality of a world without 
the INF Treaty should Russia cause the INF Treaty to fail.
    As part of the U.S. Integrated Strategy for responding to the 
violation, the Department of Defense has commenced INF Treaty-compliant 
research and development of conventional, ground-launched, 
intermediate-range missile systems that could be pursued if the INF 
Treaty limits no longer exist. Should the Russian Federation's actions 
result in the collapse of the INF Treaty, these efforts will prepare 
the United States to better defend itself and its allies.

    Question. Given Russia's ongoing noncompliance with the INF Treaty, 
does it make sense to start negotiations for an extension or follow-on 
to the New START Treaty before Russia comes into full compliance with 
the INF Treaty?

    Answer. The United States remains willing to engage in a prudent 
arms control agenda. We are prepared to consider arms control 
opportunities that return Parties to predictability and transparency, 
and we remain receptive to future arms control negotiations if 
conditions permit and the potential outcome improves the security of 
the United States and its allies and partners. The United States will 
continue to implement the New START Treaty fully, which complements 
U.S. nuclear deterrence strategy by contributing to a transparent and 
predictable strategic balance between the United States and Russia. We 
will consider next steps related to the New START Treaty at the 
appropriate time, taking into account Russia's compliance with its 
obligations under the New START Treaty and other arms control 
agreements.

    Question. What strategy does the United States have for addressing, 
diplomatically and militarily, the growth of Russian tactical nuclear 
weapons and other nuclear weapons systems, which the Kremlin is 
fielding for potential use in military contingencies in Europe, but 
which are not covered by the New START Treaty or the INF Treaty?

    Answer. Russia has expanded and is modernizing its strategic and 
non-strategic nuclear forces. DIA estimates that Russia possesses 
approximately two thousand non-strategic nuclear warheads. The 
Administration has taken note of the new strategic nuclear weapons 
announced by President Vladimir Putin on March 1, 2018. In addition, 
Russia has rejected U.S. efforts to seek negotiated reductions in 
tactical or non-strategic nuclear weapons. Russia's nuclear 
modernization efforts and lack of interest in further negotiated arms 
reductions highlight a dramatic deterioration of the strategic 
environment that predates this Administration. The 2018 Nuclear Posture 
Review recommends two supplemental nuclear capabilities to enhance the 
flexibility and responsiveness of U.S. nuclear forces to respond to 
this challenge: the low-yield ballistic missile and the nuclear sea-
launched cruise missile. These modest supplements to the U.S. nuclear 
force will enhance deterrence by denying Russia any mistaken confidence 
that limited nuclear employment could provide an advantage over the 
United States or its allies and partners.

    Question. Was the future of the New START treaty discussed during 
the drafting of the 2018 Nuclear Posture Review?

    Answer. The New START Treaty was discussed during the analysis and 
drafting of the 2018 Nuclear Posture Review. Both the United States and 
Russia met the central limits of the New START Treaty by the February 
5, 2018 deadline--three days after the Nuclear Posture Review was 
released. The Administration has made no decision regarding potential 
extension of the New START Treaty beyond its expiration in February 
2021.

    Question. Are there any ongoing discussions, or plans to hold 
discussions, in the interagency to determine potential impacts on 
nuclear modernization and whether the treaty should be extended?

    Answer. Yes, the Administration has assessed and continues to 
assess the value, risks, and consequences to U.S. national security of 
either extending the New START Treaty or not extending it.

    Question. If the treaty were not to be extended, would the 2018 NPR 
require a revision?

    Answer. Regardless of a decision whether or not to extend the New 
START Treaty, the guidance laid out in the 2018 Nuclear Posture Review 
(NPR) would not require a revision. The NPR clearly states that the 
United States is prepared to consider arms control opportunities that 
return parties to compliance, predictability, and transparency, and the 
United States is receptive to future arms control negotiations if 
conditions permit and the potential outcome improves the security of 
the United States, its allies, and partners. This guidance will be used 
to guide the Administration's decision whether to extend the New START 
Treaty, and will continue to be implemented after any decision is made 
in order to continue to advance the security of the United States, and 
its allies and partners.
                                  ctbt
    Some experts have suggested that the Russians, and perhaps also the 
Chinese, have conducted low-yield events, skirting the definition of a 
test in the Comprehensive Test-Ban Treaty (CTBT).

    Question. Has Russia or China ever conducted any nuclear weapons-
related events or testing that circumvents the spirit or the letter of 
the CTBT?

    Answer. Classified response.

    Question. Does the United States view Russia's or China's nuclear 
weapons-related events or testing activities as violating either the 
spirit or the letter of the CTBT?

    Answer. Classified response.
                               __________

   Responses of Hon. David J. Trachtenberg to Questions Submitted by 
                        Senator Robert Menendez

                           open skies treaty
    From September 2-10, 2018, experts from the United States and 22 
other States Parties met in Russia for the Certification of Russia's 
Tu-214 Open Skies aircraft and its associated sensor. This was the same 
sensor the United States previously determined in 2016 met the treaty 
requirements. At the meeting, all other treaty parties approved the 
sensor expect the United States, which declined to do so. The United 
States then apparently back tracked on its decision and certified the 
Russian aircraft.

    Question. Did the United States consult our allies before the 
September meeting about our decision not to certify the plane at that 
time?

    Answer. All States participating in the certification event were 
given limited advance notice that the Senior Representative of the 
United States was not authorized to sign the Certification Report; that 
the United States would issue an Open Skies Format 35 message within 14 
days, as required by the Treaty; and that this action did not preclude 
the United States from certifying the Russian aircraft and sensor 
following further consultations in Washington.

    Question. How did the State Department specifically come to the 
decision not to certify the plane? And why did it reverse this 
decision?

    Answer. On September 10, 2018, the United States did not sign the 
certification report due to ongoing discussions in Washington. The 
United States announced its intent to certify the aircraft and sensor 
on September 18, 2018, and signed the certification report on September 
24, 2018. I would respectfully refer you to the Department of State for 
further questions regarding their internal discussions.

    Question. What legal and technical issues were identified for not 
certifying the plane?

    Answer. On September 10, 2018, the United States did not sign the 
certification report due to ongoing discussions in Washington. Those 
discussions concluded and on September 18, 2018, the United States 
informed all States Parties via formal Treaty mechanisms that it would 
sign the certification report for Russia's aircraft and sensor. The 
United States signed the report on September 24, 2018.

    Question. Is the United States seeking to use certification 
decisions as a political tool to put pressure on Russia for its Open 
Skies violations? Would the United States be in violation of our legal 
obligation under the Open Skies treaty if we held up certification of 
aircraft and associated sensors without a technical justification for 
our decision?

    Answer. Open Skies Treaty certifications follow a technical process 
intended to ensure, through extensive and intrusive inspections, that 
the aircraft and sensor combination being presented for certification 
meet the relevant requirements of the Treaty. The United States has not 
linked its position on such certifications to the resolution of 
Russia's violations of the Treaty.

    Question. Has the United States assessed which of the systems 
President Putin unveiled in March 2018 would be constrained by New 
START? Has the United States assessed whether the new Russian systems 
unveiled in March 2018 will be deployed during the lifetime of New 
START? Has the United States assessed when Russia's newly unveiled 
systems are likely to be fielded and deployed by the Russian military? 
Please include a classified answer to this set of questions if 
necessary.

    Answer. The United States has reviewed the systems President Putin 
unveiled in March 2018. The Defense Intelligence Agency conducted a 
highly classified assessment and the Office of the Secretary of Defense 
is prepared to brief the findings and implications.

    Question. As part of our pressure campaign to push the Russian 
Federation back into compliance, has the United States called upon 
Russia to halt production of the 9M729? Has the United States asked 
Russia to provide an exhibition of the 9M729 so U.S. experts can review 
its technical characteristics and determine whether it can fly more 
than 500km, which would violate the treaty? Has the Russian government 
put forward any proposals to address the United States concerns about 
the 9M729? Has the United States scheduled another meeting of the 
Special Vertification Commission (SVC) or a bilateral meeting with 
Russia to discuss a diplomatic solution to Russia's INF violation?

    Answer. Russia has violated core tenets of the Intermediate-range 
Nuclear Forces (INF) Treaty not to possess, produce, or flight-test a 
ground-launched intermediate-range cruise missile and not to possess 
and produce launchers of such missiles. Russia knows what it must do to 
return to compliance, but Russia has not substantively addressed U.S. 
concerns in any way. We conducted three bilateral experts meetings and 
two SVC meetings. No further meetings are currently scheduled.

    Question. Has the United States asked Russia to provide an 
exhibition of the 9M729 so U.S. experts can review its technical 
characteristics and determine whether it can fly more than 500km, which 
would violate the treaty?

    Answer. Russia has violated core tenets of the Intermediate-range 
Nuclear Forces (INF) Treaty not to possess, produce, or flight-test a 
ground-launched intermediate-range cruise missile and not to possess 
and produce launchers of such missiles. Russia knows what it must do to 
return to compliance, but Russia has not substantively addressed U.S. 
concerns in any way. We conducted three bilateral experts meetings and 
two SVC meetings. No further meetings are currently scheduled.

    Question. The United States and Russia held a first round of 
strategic stability talks last September in Helsinki. These talks in 
the past have been critical for reducing the risk of nuclear conflict. 
Does the administration support a resumption of strategic stability 
talks? Has Russia indicated whether they support resumption of the 
talks? In future strategic stability talks will the United States raise 
hypersonic delivery systems and cyberattacks as potential dangers to 
strategic stability?

    Answer. No further strategic stability talks are currently 
scheduled, although the United States is not opposed to further 
discussions. Without speculating on the agenda, hypersonic weapons and 
cyberattacks are among the issues that could be discussed, were talks 
to resume.

    Question. The Missile Defense Review mandated by Congress was 
originally scheduled for release alongside the Nuclear Posture Review 
in February. However, Congress has still not received a copy of this 
report. When will the Administration publish its Missile Defense 
Review?

    Answer. The Secretary assigns a high priority to the Missile 
Defense Review (MDR) and has directed the Department to proceed with 
the Review's completion and release. The report is in the final stages 
of completion, and the MDR will be released in the near future. The MDR 
is an important strategic document and should be released to the 
Congress and the public. Thank you for support of our missile defense 
programs and the warfighters who operate them.

    Question. What has delayed the process?

    Answer. The Department's efforts to prepare the MDR have been very 
thorough and comprehensive in order to produce a document in line with 
the National Security Strategy, the National Defense Strategy, and the 
Nuclear Posture Review. The Department has also carefully taken into 
account recent missile threat and technological developments.

    Question. Do you agree there is an interrelationship between 
strategic offensive arms and defensive strategic arms?

    Answer. Both strategic offensive arms and defensive capabilities, 
properly configured, sized, and postured, can promote stability by 
enhancing deterrence of both conventional and nuclear war.

    Question. Have U.S. strategic missile defense deployments 
influenced the size, capabilities, and posture of Russian and Chinese 
nuclear forces since the United States withdrew from the ABM treaty? 
Please include a classified answer to this set of questions if 
necessary.

    Answer. There can be a number of national and strategic goals and 
objectives that influence the size, capabilities, and posture of 
Russian and Chinese nuclear forces as well as their missile defenses. 
The composition of strategic capabilities is likely based on a 
combination of these goals and objectives, rather than on a single one. 
For example, Russian leaders decided that building a missile defense 
system to protect Russian territory is in its strategic interests. They 
deploy defenses against both long-range and shorter-range ballistic 
missiles. In addition, history has shown that Russia engaged in its 
most substantial buildup of strategic nuclear weapons after the ABM 
Treaty was signed in 1972. That said, we have been clear about the role 
and purpose of our missile defense policy. U.S. homeland missile 
defenses are focused on staying ahead of rogue state ICBM threats. 
These defenses are not capable of negating Russian and Chinese 
strategic forces, which greatly exceed in number and capability our 
homeland missile defenses. The United States relies on nuclear 
deterrence to deter a potential Russian or Chinese nuclear attack.
                               __________

   Responses of Hon. David J. Trachtenberg to Questions Submitted by 
                        Senator Edward J. Markey

                            new start treaty
    In comments just a few weeks ago, National Security Advisor Bolton 
said the Trump administration is ``very, very early in the process of 
considering'' what it wants to do about the New START Treaty.

    Question. Is this the first time since the Trump administration 
came into office in January 2017 that the Defense Department is 
reviewing its position with regard to the New START Treaty? If so, why 
is the Trump administration just starting its review now? If not, why 
is the Trump administration re-reviewing its position with regard to 
New START?

    Answer. The Administration began reviewing the status of all arms 
control treaties and agreements in January 2017, including the New 
START Treaty. The Administration initially focused on assessing 
Russia's current compliance with the New START Treaty, assessing 
Russian progress toward achieving its reductions by the February 2018 
deadline, and Russia's compliance with other treaties and agreements. 
Now that we assess that Russia achieved its reductions by the February 
2018 deadline, the Administration is focused on monitoring Russia's on-
going implementation of the New START Treaty and other treaties.

    Question. What specifically is being reviewed at the Defense 
Department in the ``process'' to which Ambassador Bolton referred? What 
is the timeline for completion of this review?

    Answer. The Department of Defense is focused on assessing Russia's 
implementation of the New START Treaty and Russia's modernization of 
its strategic forces. For example, several of the new strategic systems 
announced by Russian President Putin in his speech on March 1, 2018, 
meet the criteria for what the Department of Defense believes the New 
START Treaty calls ``new kinds of strategic offensive arms.''

    Question. The Defense Department often emphasizes how important 
``stability'' and ``predictability'' are for national security. Is the 
same not also true for policy? Does the military use information gained 
from New START data exchanges and inspections to inform our own force 
posture decisions? If so, please explain how.

    Answer. The military uses a variety of information regarding 
Russian nuclear forces, including New START Treaty data, to inform our 
own force posture decisions. The verification procedures in New START 
provide insights into Russian behavior that inform U.S. nuclear force 
posture decisions. Because the security environment remains dynamic, 
U.S. policy must be adaptable to changing circumstances; policies that 
are not aligned with strategic realities do not protect our national 
security.

    Question. If New START isn't extended, what specific adjustments 
will the Defense Department have to consider making to U.S. force 
posture vis-a-vis Russia? How specifically would America's nuclear 
forces have to be adjusted?

    Answer. Recommendations regarding adjustments to the U.S. force 
posture, if any are needed, would be made based on an assessment of how 
changes to the Russian Federation's force posture affects our ability 
to fulfill the roles nuclear weapons play in our national security 
strategy. Without knowing what changes the Russians might make in the 
absence of New START, it is not possible to say what adjustments would 
be required.

    Question. If New START expires, is there anything to stop the 
Russians from moving rapidly to expand their strategic forces? Is the 
U.S. military comfortable with no limits on Russia's strategic nuclear 
forces? Really want to have to go nuclear weapon for nuclear weapon 
with Russia?

    Answer. The United States is not interested in matching Russian 
nuclear forces weapon for weapon. However, regardless of the future of 
the New START Treaty, the United States will do what is necessary to 
maintain a credible and effective nuclear deterrent.
           intermediate-range nuclear forces (inf) agreement
    Last December the Trump administration announced ``new diplomatic, 
military, and economic measures intended to induce'' Russia ``to return 
to compliance'' with the Intermediate Range Nuclear Forces (INF) Treaty 
and ``to deny it any military advantage should it persist in its 
violation.'' This included beginning research on ``concepts and options 
for conventional, ground-launched, intermediate-range missile 
systems.''

    Question. What is the status of these efforts and how much has DoD 
spent on them to date?

    Answer. For the last year, the Department of Defense has reviewed 
and evaluated options for systems it could develop if it were not 
constrained by the INF Treaty. The effort up to now has been largely 
pre-decisional, staff-level analysis to evaluate and narrow the range 
of options for candidate systems. The Department is now prepared to 
begin formal research and development activities, pending appropriation 
of the $48M DoD requested in Fiscal Year 2019. The Department is also 
working through the budget process to ensure it has the necessary 
funding to continue these efforts beyond Fiscal Year 2019. At present, 
all research and development efforts remain compliant with U.S. 
obligations under the INF Treaty and would only proceed to testing and 
production if the INF Treaty obligations no longer exist.

    Question. Is the INF Treaty in the U.S. national security interest?

    Answer. The value of the INF Treaty, or any arms control treaty, 
depends on all Parties remaining in compliance. Russia's violation of 
the INF Treaty is a concrete threat to U.S. forces and to allies and 
partners in Europe and Asia. Russia's blatant violation of the Treaty 
has resulted in U.S. unilateral compliance, and calls into question the 
continued viability of the Treaty. It is Russia's actions that will 
ultimately determine the future of the INF Treaty.

    Question. What evidence do you have to suggest that conducting 
research and development on a ground-launched, intermediate-range 
missile system will change Russia's behavior with regard to the its 
noncompliance with the INF Treaty? If the premise of this strategy is 
wrong and R&D on this possible system is completed, what will the 
United States do next?

    Answer. U.S. diplomatic efforts since 2013 have not resulted in any 
change to Russia's behavior with regard to its violation of the INF 
Treaty. Therefore, this Administration included a specific military 
measure commencing INF Treaty compliant research and development aimed 
at reminding Russia why it entered into the INF Treaty in the first 
place. Only Russia can answer the question of whether it will choose to 
alter its course as a result of this action. The United States is 
seeking to preserve the INF Treaty but Russia's actions will decide its 
fate. Either way, the United States will ensure its own national 
security and the security of our allies and partners.

    Question. Has the Defense Department been instructed to ask 
European allies and partners to consider hosting a potential U.S. 
ground-launched, intermediate-range missile system? Have any European 
allies or partners volunteered to do so?

    Answer. No, it remains too early to consider discussions on both 
matters.
                           open skies treaty
    Question. On September 10, the United States refused to certify the 
new Russian Tu-214 aircraft for flights under the Treaty on Open Skies. 
Did the Defense Department provide a recommendation to the State 
Department and other interagency partners on whether to certify 
Russia's new aircraft in advance of the September 10 meeting?

    Answer. The Department of Defense was involved in the interagency 
discussions regarding certification of Russia's new Open Skies 
aircraft.

    Question. The State Department has represented that the United 
States did not certify the aircraft because U.S. experts needed more 
time to review additional data before making a final decision. Was the 
Defense Department consulted on that decision?

    Answer. I would respectfully refer you to the Department of State 
for any clarification of its representation.

    Question. What additional data--if any--did the Defense Department 
review subsequent to the September 10, 2018 meeting to determine 
whether the United States should certify Russia's aircraft? Why wasn't 
this information available to the Untied Stated before the September 10 
meeting?

    Answer. At the conclusion of the certification event on September 
10, the United States declined to consent to the certification due to 
ongoing discussions in Washington. On September 18, the United States 
informed all States Parties via formal treaty mechanisms that we would 
approve the certification of the Russian aircraft.

    Question. Before the vote, did the United States give our European 
partners or allies like France or Canada or the U.K. and warning of our 
planned objection? If so, how far in advance?

    Answer. All states participating in the certification event were 
given limited advance notice that the Senior Representative of the 
United States was not authorized to sign the Certification Report; that 
the United States would issue an Open Skies Format 35 message within 14 
days, as required by the Treaty; and that this action did not preclude 
the United States from certifying the Russian aircraft following 
further consultations in Washington.

    Question. In the Defense Department's view, is the Open Skies 
Treaty in the U.S. national security interest?

    Answer. As Secretary Mattis stated in a letter to Senator Fischer 
in May 2018, it is the Department's view that it is in our best 
interest to remain a party to the Open Skies Treaty because it 
contributes to greater transparency and openness. However, Russia's 
actions in violation of certain provisions of the Treaty have the 
opposite effect and must be challenged.

    Question. What is the progress on updating our own Open Skies 
aircraft to digital sensors? Was there anything, besides funding, that 
prevented the United States from moving to digital sensors faster?

    Answer. The Department of Defense is working within the budget and 
acquisition process to update the sensors on our Open Skies aircraft. 
To date, the first of two aircraft has been modified with the new 
digital sensor. Testing is ongoing in preparation for Treaty 
certification of the new sensor.
            2018 trump administration nuclear posture review
    The Trump administration has repeatedly asserted that Russia has 
adopted a policy of escalate to de-escalate--a doctrine in which they 
would use a nuclear weapon to end a conventional conflict they were 
losing.

    Question. Has the Defense Department explicitly asked its 
counterparts in either the Russian Ministry of Defense, the Russian 
Ministry of Foreign Affairs, or the Russian military about this 
supposed doctrine? If not, why not?

    Answer. The Defense Intelligence Agency (DIA) has written about 
Russian military doctrine and emphasized that Russia has discussed 
using nuclear weapons to de-escalate a conflict. In addition, DoD 
officials have directly raised this doctrinal issue with Russian 
counterparts and expressed our concern about their doctrine and the 
risks it presents for miscalculation.

    Question. The Trump administration is pressing forward with plans 
to develop the W76-2 ``low-yield'' nuclear warhead to be launched atop 
the Trident D5 submarine-launched ballistic missile. Is a Trident D5 
launched with a W76-2 warhead distinguishable from one with a high-
yield W76 or W88 nuclear warhead? If not, does the Defense Department 
this poses any increased risk for miscalculation?

    Answer. The W76-2 reduces the risk of miscalculation because it is 
meant to reinforce the credibility of our response. A credible response 
strengthens deterrence by denying potential adversaries the advantages 
they appear to believe they could realize from nuclear first use. It 
sends a signal to Russia and other potential adversaries that the 
United States is serious about maintaining an unambiguously strong 
nuclear deterrent.
    The type of warhead is not distinguishable by observing a Trident 
D5 missile launch alone. The W76-2 is intended to provide a credible 
response option to a limited nuclear attack in order to strengthen 
deterrence of such an attack. We are confident that a nuclear-armed 
adversary that decides to use a nuclear weapon in a limited way would 
anticipate that we would launch a response and that they would 
correctly calculate that the launch of a single Trident D5 missile 
would not be a large-scale attack.

    Question. The United States already has ``low-yield'' nuclear 
weapons and delivery platforms in place to deter Russian aggression. 
Why are these options insufficient?

    Answer. Although the United States has low-yield capable nuclear 
weapons, these weapons must be delivered by aircraft, which are 
vulnerable to formidable existing Russian air defenses. Russia may 
conclude that it could blunt the current U.S. low-yield response and 
that the United States would be self-deterred from using strategic 
nuclear weapons; the W76-2 low-yield warhead is intended to dispel this 
notion--however mistaken it might be.
                         emerging technologies
    Question. Emerging technologies--such as hypersonic weapons and 
artificial intelligence--may potentially impact strategic stability. 
The science and technology behind these weapons is advancing rapidly, 
while the policy and diplomatic conversation is not. What discussions 
is the State Department having within the U.S. government to develop a 
diplomatic strategy for engaging with Russia, China, and others on how 
these weapons intersect with America's national security and foreign 
policy?

    Answer. In general, it should be noted that ``emerging 
technologies'' is an extremely broad term that covers many different 
technologies including artificial intelligence (AI) and hypersonic 
weapons. However, I would defer to my State Department colleagues 
regarding diplomatic discussions on this topic.

    Question. Have you raised the possibility of discussing these 
issues with Russia, China, or others? Could our strategic stability 
talks with Russia provide a good platform for having these discussions?

    Answer. The issues of artificial intelligence and hypersonic 
weapons could be items for discussion with Russia or China, but I defer 
to the State Department regarding any plans to raise these issues in 
diplomatic forums.

    Question. With respect to artificial intelligence, the State 
Department leads the U.S. participation in multilateral discussions on 
lethal autonomous weapon systems held under the auspices of the 
Convention on Certain Conventional Weapons, which includes China and 
Russia. Does the Defense Department view hypersonic weapons or 
artificial intelligence as threats to strategic stability?

    Answer. Generally the Department views hypersonic weapons as posing 
a low risk to stability. The technical characteristics of these weapons 
are such that the risks of misinterpretation are low.
    DoD does not view AI as an inherent threat to stability; artificial 
intelligence holds the promise of improved efficiency and 
effectiveness, to include improved compliance with the Law of War and 
improved humanitarian outcomes, as well as improved efficiencies in 
maintenance, personnel management and payroll, and other so-called 
``back-office'' functions.
                  modernization and nuclear reductions
    Question. The Administration likes to point to a broad, bipartisan 
consensus in support of upgrades to the U.S nuclear infrastructure. 
That consensus is based on the idea that modernization would be paired 
with clear, committed, and continuous work on arms control and 
disarmament efforts. What has the Administration done over the last 
twenty months to support and enhance arms control and disarmament 
efforts?

    Answer. The 2018 Nuclear Posture Review notes that arms control can 
contribute to U.S., allied, and partner security by helping to manage 
strategic competition among states. The Administration has continued to 
support arms control and disarmament efforts that enhance U.S. national 
security and the security of our allies and partners. We continue 
efforts to establish the political and security conditions that would 
enable further nuclear reductions; deny terrorist organizations access 
to nuclear weapons and materials; strictly control weapons-usable 
material, related technology, and expertise; and seek arms control 
agreements that enhance security and are verifiable and enforceable. 
Specifically, the Administration has supported the goals of the Treaty 
on the Non-Proliferation of Nuclear Weapons and completed the 
reductions of strategic offensive arms under the New START Treaty The 
Administration is working to convince States in violation of their arms 
control obligations to return to compliance. We seek to reestablish the 
conditions necessary for greater trust with the Russian Federation and 
improved transparency with China.

    Question. Since we knew that the Russians and Chinese were 
modernizing their forces back in 2013, what are the new specific 
nuclear-related events that have happened in the last five years that 
would justify not only maintaining our current numbers, but potentially 
expanding them?

    Answer. Russia has repeatedly announced new programs and made 
specific nuclear threats directed at the United States and NATO Allies. 
For instance, in his March 1, 2018 Presidential Address to the Federal 
Assembly, Putin announced the creation of several new types of nuclear 
weapons, including: 1) a new heavy ICBM ``equipped with powerful 
nuclear warheads, including hypersonic;'' 2) an ``unlimited-range 
nuclear-powered cruise missile;'' and 3) intercontinental-range 
nuclear-powered unmanned underwater vehicles. Russia has also 
repeatedly brandished its nuclear sword in recent years against our 
NATO allies. During its invasion and illegal annexation of Crimea for 
instance, Russia raised the alert of its nuclear forces and issued 
veiled nuclear threats to warn against Western intervention. China has 
continued its practice of non-transparency and has steadily increased 
its reliance on nuclear weapons. In response, the United States studied 
these changes in the security environment and determined that the 
United States can address capability gaps by modernizing the nuclear 
enterprise and providing modest supplements to ensure that our 
adversaries do not miscalculate U.S. resolve. These supplemental 
capabilities would not expand the size of our nuclear arsenal.
                         missile defense review
    Question. The FY2017 National Defense Authorization Act required 
the Missile Defense Review (MDR) to be completed by January 2018. On 
May 2, when the report was already four months late, you said you 
expected the MDR ``to be out very soon.'' Yet two months later on July 
10 you stated ``It's coming out soon.'' The Missile Defense Review is 
now eight months overdue--when will it be published?

    Answer. The report is in the final stages of completion and will 
serve as the policy foundation and guide the Missile Defense Program 
Objective Memorandum for the Fiscal Year 2020 submission.

    Question. What specifically has delayed release of the Missile 
Defense Review?

    Answer. The Department's efforts to prepare the MDR have been very 
thorough and comprehensive in order to produce a document in line with 
the National Security Strategy, the National Defense Strategy, and the 
Nuclear Posture Review. These efforts have taken longer than planned 
but we expect the review to be out shortly.

    Question. Will the Defense Department brief Congress in advance of 
the MDR's release? Will the Defense Department brief foreign allies and 
partners about the MDR?

    Answer. Yes, the Department will brief Congress as well as allies 
and partners on the MDR.

    Question. Could increasing the amount of U.S. missile defense 
systems worldwide affect strategic stability?

    Answer. Missile defense systems are not destabilizing. U.S. missile 
defenses have strengthened stability by diminishing the ability of 
countries like North Korea and Iran to coerce the U.S., its allies and 
partners. For example, our homeland missile defenses are oriented 
towards the strategic arsenals possessed by North Korea and, 
potentially, Iran. By undermining coercive strategies posed by these 
potential adversaries, missile defenses are a stabilizing factor that 
strengthen both deterrence and assurance. Despite claims to the 
contrary, U.S. missile defenses do not undermine Russia or China's 
strategic nuclear deterrent.
    Regional missile defenses similarly are stabilizing. These defenses 
cannot provide perfect protection, but can provide sufficient 
protection to our forces and infrastructure to strengthen conventional 
deterrence by undermining adversary confidence in their offensive 
missile capabilities.
    The value of missile defenses is demonstrated, in part, by Russian 
and Chinese investments in missile defense systems.

    Question. Is there an interrelationship between strategic offensive 
arms and strategic defensive arms? If so, please detail what this 
interrelationship is.

    Answer. Both strategic offensive arms and defensive capabilities, 
properly configured, sized and postured, can promote stability by 
enhancing deterrence of both conventional and nuclear war.

    Question. In an article published in July 2016, you praised 
provisions in the fiscal year 2017 national defense authorization act 
calling for developing and integrating space-based missile defenses 
into the U.S. missile defense architecture and a policy of broadening 
U.S. territorial defense against more than just ``limited'' ballistic 
missile strikes. You added that these actions ``would help make it 
clear that continued American vulnerability to Russian nuclear missiles 
is unacceptable.'' Do you continue to believe that American 
vulnerability to Russian nuclear missiles is unacceptable? Will the 
forthcoming missile defense review reflect that view?

    Answer. It is U.S. policy to defend our homeland from a potential 
intercontinental ballistic missile (ICBM) attack from regimes like 
North Korea and Iran. We rely on our nuclear forces to deter a 
strategic nuclear attack from Russia and China. However, even though 
our homeland missile defenses are designed to protect against regional 
powers, in the event of conflict, we will use our missile defense 
systems to the extent feasible to defend against an ICBM attack from 
any source. We will deploy and employ regional missile defenses to 
protect against any regional missile threat. This policy will be 
reflected in the Missile Defense Review.
                               __________

   Responses of Hon. David J. Trachtenberg to Questions Submitted by 
                          Senator Jeff Merkley

    Question. One of the justifications given for the development of a 
low-yield submarine launched ballistic missile (SLBM) is that the 
United States is ``self-deterred'' from responding to a limited use of 
Russian nuclear weapons. However, in addition to several conventional 
options, the United States already possess hundreds of newly life 
extended B-61 gravity bombs and hundreds more of low yield air launched 
cruise missiles (ALCM), launched as stand-off weapons to minimize risk 
to U.S. Air Force pilots. Given the current diverse options available 
to the President, is a new low-yield SLBM necessary?

    Answer. The low-yield submarine-launched ballistic missile (SLBM) 
will be highly survivable when deployed in ballistic missile submarines 
at sea, while U.S. gravity bombs are more vulnerable in fixed storage 
and operating locations. SLBMs are highly accurate and, given their 
speed and trajectory, are better able to penetrate modern defenses that 
could challenge air-delivered weapons. The low-yield SLBM will provide 
an additional, assured option to bolster nuclear deterrence by ensuring 
adversaries do not miscalculate U.S. resolve and capabilities. The low-
yield SLBM does not reduce the need for air-delivered gravity bombs and 
dual-capable aircraft, which can be forward deployed; contribute to 
allied burden sharing; provide visible assurance to both allies and 
partners; and serve as a tangible demonstration of U.S. extended 
deterrence guarantees.

    Question. Given Russia would have mere minutes to react to the U.S. 
launch of a SLBM, what assurance do we have that Russia would not 
mistake a single low-yield warhead for a SLBM carrying multiple 
warheads with an explosive yield measuring hundreds of kilotons?

    Answer. We are confident Russia could distinguish a single 
submarine-launched ballistic missile (SLBM) launch from a large-scale 
attack. Knowledge that we actually have a low-yield option should 
actually encourage restraint.

    Question. If low-yield capable nuclear weapons have greater 
deterrence value, what is the possible reason for the administration to 
retain the B-83 megaton bomb, which is a nuclear weapon that boasts an 
explosive power of up to 80-times that which was used against Hiroshima 
in August 1945?

    Answer. A low-yield submarine-launched ballistic missile (SLBM) 
warhead enhances deterrence by providing an additional, survivable 
response capability that an adversary must consider if contemplating a 
limited use scenario. The B83-1 enhances deterrence by maintaining a 
known capability that can effectively strike hard and deeply buried 
targets. The 2018 Nuclear Posture Review reiterates the prior 
Administration's commitment to retain the B83-1 in the stockpile until 
there is sufficient confidence in the B61-12 gravity bomb. Given the 
changed threat environment, deterrence requirements to hold a variety 
of protected targets at risk, and the unique capabilities of the B83-1 
bomb to fulfill those requirements, the Administration decided to 
postpone B83-1 retirement until a suitable replacement is validated.

    Question. The Department of Defense justified the need for the B-61 
(12) Life-Extension Program (LEP), in part, on the basis that it would 
provide the United States an earth-penetrating capability to hold at 
risk underground targets. Is it no longer assessed that the B-61(12), 
which the Government Accountability Office (GAO) estimates could cost 
up to $10 billion, can hold underground targets at risk?

    Answer. We assess that the B-61(12) will be effective against a 
variety of targets, including some underground targets.
                               __________

   Responses of Hon. David J. Trachtenberg to Questions Submitted by 
                         Senator Cory A. Booker

                    new start renewal considerations
    During the hearing you outlined the importance of New START and its 
benefits to the United States. In your testimony you said, ``Any 
decision on extending the Treaty will, and should be, based on a 
realistic assessment of whether the New START Treaty remains in our 
national security interest, in light of overall Russian arms control 
behavior''.

    Question. If the assessment is that the United States and Russia 
are both fully complying with New START, would the administration 
consider not extending it because of other difficulties with the 
Russia-U.S. relationship?

    Answer. The Administration has not yet made a decision on whether 
or not to extend the New START Treaty. Future progress with the New 
START Treaty should occur in the context of actions taken by Russia 
with regard to all of its arms control obligations. Russia's appalling 
behavior of continued violations and non-compliance with other treaties 
and agreements remains an impediment to bilateral cooperation.

    Question. What would be the consequences if there are no data 
exchanges, reciprocal inspections or verifiable limits on U.S. and 
Russian strategic nuclear forces, which would be the case if New START 
is allowed to expire with nothing to replace it?

    Answer. Arms control treaties, such as the New START Treaty, can 
contribute to U.S. security by fostering transparency, establishing 
openness, and building confidence. However, these potential benefits 
must be weighed against Russia's overall arms control behavior, which 
suggests a policy of selective compliance that impedes transparency and 
diminishes confidence. The verification regime is important, but it is 
one of several factors in determining whether the New START Treaty 
continues to contribute to U.S. security.

    Question. Recognizing that New START expires in February 2021, what 
is a realistic deadline for the U.S. to decide if it will seek to 
extend the treaty?

    Answer. Deciding to extend the New START Treaty is a decision made 
between the Treaty's Parties and is not subject to any deadline other 
than the expiration of the Treaty itself in February 2021. The 
Administration has not yet made a decision on whether it will extend 
the New START Treaty.
                    resolving the inf treaty dispute
    Because of a compliance dispute, the INF Treaty is under threat. A 
collapse of the INF Treaty would open the door to a U.S.-Russian arms 
race in intermediate-range missiles and have negative repercussions for 
the entire arms control agenda and pose a new threat to our NATO and 
European allies.
    Some independent U.S. and Russian experts who are familiar with the 
nature of the Russian INF violation argue that Washington and Moscow 
should agree to reciprocal site visits by experts to examine Russia's 
disputed 9M729 missile and U.S. missile defense launchers in Romania 
and Poland. If the 9M729 missile is determined to have a range that 
exceeds 500 km, Russia could modify the missile to ensure it no longer 
violates the treaty or halt production and eliminate any such missiles 
in its possession. For its part, the United States could modify its 
missile defense launchers to clearly distinguish them from the 
launchers used to fire offensive missiles from U.S. warships or agree 
to transparency measures that give Russia confidence the launchers do 
not contain offensive missiles.

    Question. Do you agree that in order to break the impasse, both 
sides need to address the concerns of the other side?

    Answer. There is no equivalence between the two. The impasse is the 
result of the Russian Federation's continued unwillingness to address 
its serious breach of the INF Treaty. Russia has violated core tenets 
of the INF Treaty not to possess, produce, or flight-test a ground-
launched intermediate-range cruise missile and not to possess and 
produce launchers of such missiles.

    Question. The United States has not violated the INF Treaty and 
remains in compliance with its obligations. The United States has 
addressed Russian allegations in a transparent and comprehensive manner 
during multiple engagements with the Russian Federation. Have you 
considered this or other reciprocal arrangements?

    Answer. A site visit will not resolve Russia's violation. In order 
for the Russian Federation to return to compliance with its 
obligations, it must eliminate all 9M729 cruise missiles and associated 
launchers in a verifiable manner.

    Question. What other approaches should we be exploring to get the 
Russians back into compliance?

    Answer. The Administration continues to work through diplomatic 
channels to urge Russia to preserve the INF Treaty. We have engaged 
Russia bilaterally as well as in multilateral venues such as the INF 
Treaty's Special Verification Commission.

    Question. The Administration continues to apply pressure on Russia 
by conducting INF Treaty-compliant research and development of 
potential new ground-based strike capabilities. We urge Russia to begin 
recognizing that its violation will not make Russia more secure. When 
was the last time the administration met with representatives of Russia 
to discuss the INF issue? Who represented the United States and Russia 
at those talks?

    Answer. The last dedicated meeting between the United States and 
the Russian Federation related to the INF Treaty occurred in June 2018 
when technical experts of both countries met to discuss INF Treaty 
issues. Ambassador John Ordway and Mr. Vasiliy Boryak represented the 
United States and the Russian Federation, respectively.



                                  [all]
</pre></body></html>
